<html>
<title> - CONFRONTING DRUG TRAFFICKING IN WEST AFRICA</title>
<body><pre>[Senate Hearing 111-121]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-121
 
              CONFRONTING DRUG TRAFFICKING IN WEST AFRICA 

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-925 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 



















                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            RUSSELL D. FEINGOLD, Wisconsin, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JIM DeMINT, South Carolina
EDWARD E. KAUFMAN, Delaware          BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire        JAMES E. RISCH, Idaho

                              (ii)        

  
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Braun, Michael, managing partner, Spectre Group International, 
  Alexandria, VA.................................................    36
    Parepared statement..........................................    38
Carson, Hon. Johnnie, Assistant Secretary, Bureau of African 
  Affairs, Department of State, Washington, DC...................     4
    Prepared statement...........................................     6
Farah, Douglas, senior fellow, International Assessment and 
  Strategy Center, Takoma Park, MD...............................    27
    Prepared statement...........................................    30
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, opening 
  statement......................................................     1
Harrigan, Thomas M., Chief of Operations, Drug Enforcement 
  Administration, Washington, DC.................................     9
    Prepared statement...........................................    11
Isakson, Hon. Johnny, U.S. Senator from Georgia, opening 
  statement......................................................     3
McGovern, Dr. Michael, assistant professor of anthropology, Yale 
  University, New Haven, CT......................................    41
    Prepared statement...........................................    43
Wechsler, William, Deputy Assistant Secretary of Defense for 
  Counternarcotics and Global Threats, Department of Defense, 
  Washington, DC.................................................    16
    Prepared statement...........................................    18

                                 (iii)

  


              CONFRONTING DRUG TRAFFICKING IN WEST AFRICA

                              ----------                              


                         TUESDAY, JUNE 23, 2009

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:32 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russ Feingold 
(chairman of the subcommittee) presiding.
    Present: Senators Feingold, Kaufman, and Isakson.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. I want to call the hearing to order. On 
behalf of the Senate Foreign Relations Committee on African 
Affairs, I welcome all of you to this hearing, entitled 
``Confronting Drug Trafficking in West Africa.''
    I'm honored to be joined by the ranking member of the 
subcommittee, Senator Isakson, and I'll invite him to deliver 
some opening remarks in a moment.
    I'm very pleased to be holding this hearing today, 
particularly because this is an issue that urgently requires 
more attention. I am hopeful that by holding this hearing we 
can highlight the critical need for greater engagement, 
attention, and, quite likely, more resources to fully address 
this problem.
    Over the last few years, there's been a sharp rise in the 
quantity of cocaine transiting through West Africa from Latin 
America en route to Europe. The U.N. Office of Drugs and Crime 
now estimates that there are roughly 50 tons of cocaine being 
smuggled a year, worth almost $2 billion. The region's vast and 
porous borders and coastline and weak governance 
infrastructure, including poorly regulated airfields and 
limited law enforcement capacity, have, unfortunately, made it 
a perfect hub for traffickers trying to reach Europe's growing 
cocaine markets.
    According to the U.N., there are increasing signs that 
Latin American cocaine trafficking syndicates have been 
expanding into the region, possibly linking up with Nigerian-
dominated criminal groups that have been actively smuggling 
heroin for years. While the quantities of smuggled heroin pale 
in comparison to the current amounts of smuggled cocaine, it is 
worth noting that West Africa has long been one of several 
transit points for heroin from South Asia to the United States. 
This new trend is deeply alarming, not only in terms of our 
global counternarcotics goals, but because of the impact on the 
many weak states in West Africa.
    The recent unrest in Guinea-Bissau and coups in Guinea and 
Mauritania are only the most recent illustrations of the 
volatile political environments easily susceptible to illicit 
drug trafficking. In some states, such as Guinea-Bissau, the 
influx of drugs has already started to corrupt and hollow out 
governance institutions. If we don't act soon, this dynamic 
could become entrenched and could undermine governance 
throughout the region.
    At the same time, the massive profits gained from the drug 
trade can potentially be used to fund criminal and violent 
enterprises in the region, if they aren't already, which 
further exacerbates instability. We saw in the 1990s how an 
influx of illicit money fueled violent conflict in Sierra Leone 
and Liberia. Even more worrying, synergies could form between 
drug trafficking and terrorist groups, such as al-Qaeda in the 
Islamic Maghreb.
    In holding today's subcommittee hearing, I hope to sound 
the alarm on this growing problem and these potential threats. 
I've discussed this problem recently with both the Foreign 
Ministers of Nigeria and Sierra Leone, and I know it is a top 
priority for leaders across West Africa and our Ambassadors 
there. As President Obama prepares to travel to Ghana next 
month, I hope this issue will be part of his agenda, as Ghana 
is a major hub through which cocaine enters the region.
    Today's hearing also is an attempt to explore what efforts 
are currently being made by the United States and our partners
in response to this problem, and how we can best expand and 
strengthen those efforts. It's clear that the ultimate solution 
to this problem, of course, is to address state weakness, to 
help regional governments to strengthen their institutions, 
with a particular focus on law enforcement agencies, judiciary, 
and coast guards. But, we also have to consider how to build 
effective short-term solutions, including effective 
interdiction capacity, to ensure these countries are not 
flooded with illicit narcotics in the interim. Indeed, we need 
a short-term plan to help identify and prosecute individuals 
and disrupt organizations that are behind this trafficking. We 
won't be able to stop everyone, but we can and must raise the 
cost of trafficking drugs through West Africa before this 
problem becomes entrenched throughout the region. The 
challenge, of course, is to do so in a way that works with, and 
not against, our long-term goals of governance and stability.
    So, I look forward to hearing from all of our witnesses 
today about the current efforts underway and how we can best 
navigate these serious challenges.
    Speaking of our witnesses, let me quickly introduce them. 
We'll first hear from representatives from three U.S. 
Government agencies that are working on this issue, and working 
together, we hope. We will hear from Assistant Secretary of 
State for African Affairs, Johnnie Carson; Thomas Harrigan, 
Chief of Operations for the Drug Enforcement Administration; 
and William Wechsler, Deputy Assistant Secretary of Defense for 
Counternarcotics and Global Threats.
    Thank you all for being here. And I know that this issue 
cuts across several offices and bureaus within your respective 
agencies, so I want to also thank those who contributed to your 
written testimonies. We'll include those in the record, and I 
do ask, please, that you keep your remarks here to 5 minutes or 
less so we have plenty of time for questions and discussion.
    On our second panel, we'll hear from Michael Braun, the 
managing partner of Spectre Group International. Mr. Braun 
worked for DEA for over two decades, and was Chief of 
Operations from 2005 until 2008, and he obviously has a wealth 
of experience on these issues.
    We'll also hear from Doug Farah, senior fellow at the 
International Assessment Strategy Center. Mr. Farah worked for 
over two decades as a correspondent for the Washington Post in 
West Africa and Latin America, and has recently focused on 
terror financing. He's the author of two books, ``Blood from 
Stone: The Secret Financial Network of Terror'' and ``Merchant 
of Death: Money, Guns, Planes, and the Man Who Makes War 
Possible,'' a book on Russians arm dealer Victor Bout, whose 
arrest I was very happy to see last year.
    Finally, we'll hear from Mike McGovern, assistant professor 
of anthropology at Yale University. Dr. McGovern previously 
worked as the West African project director of the 
International Crisis Group.
    So, I thank everybody for being here, and I look forward to 
a fruitful discussion.
    And now I'm pleased to turn to our distinguished ranking 
member, Senator Isakson, for his opening remarks.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Chairman Feingold, and I 
am delighted to be here. And let me apologize in advance. I am 
a member of the HELP Committee, and we are marking up the 
health care bill. I am not going to be able to stay for the 
entire hearing, but I will stay for the testimony of our first 
panel.
    And it was great to see Secretary Carson again. He was 
working hard late into the night last night at a dinner on the 
Comprehensive Peace Agreement for the Sudanese Government. I 
appreciate very much his commitment and dedication to the 
Department, and in particular to Africa.
    I want to thank the chairman for calling this hearing. When 
I saw the paperwork come through and the hearing he called, it 
reminded me of an evening I spent in Equatorial Guinea a year 
ago, which was 2 nights after pirates--not ``pirates,'' but 
robbers--had beached a boat in Equatorial Guinea, run up into 
town, robbed a bank, gotten back in their boat and left again. 
This is right in the middle of one of the largest cities in 
Equatorial Guinea. So immediately upon reading the committee 
memo, I recognized exactly what had been said there, that the 
western coast of Africa is extremely vulnerable. In fact, one 
of the requests made of us by the Government of Equatorial 
Guinea to the Defense Department, Secretary Wechsler, was to 
get more naval stops along the coast, just to have that 
presence, because of the tremendous amount of illegal activity 
that was going on along the western coast of Africa.
    And Africa is particularly vulnerable because of the money 
associated with drugs. There are a number of countries whose 
GDP is very low, and the opportunity for the type of money that 
can come in from illicit drug trade and trafficking can be very 
tempting. And, worst of all, on the Horn of Africa, where we're 
in a constant battle to stop the encroachment of terrorist 
organizations, drug trafficking is one of the main things they 
like to use to finance their opportunities and their exploits, 
as we have seen in Afghanistan.
    So, I think it is a perfectly appropriate hearing to have 
today. I think it is something we should be focusing on. I am 
delighted to be a part of it. And I apologize again in advance 
that I will have to leave after the testimony of the first 
panel.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator. And the Senator, of 
course, is very dedicated to this subcommittee, and the 
proceeding that he has to attend if very important, so of 
course we understand.
    Let's start with Mr. Carson.

 STATEMENT OF HON. JOHNNIE CARSON, ASSISTANT SECRETARY, BUREAU 
    OF AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Carson. Chairman Feingold, Ranking Member 
Isakson, thank you very much for inviting me to testify at this 
important hearing on drug trafficking in West Africa. Thank you 
also for asking my colleagues from the Department of Defense, 
DOD, and the Drug Enforcement Administration, DEA, to join me 
at the witness table this morning.
    We are united in our understanding about the threat drug 
trafficking poses to Africa and to United States interests, and 
why we must collectively boost our coordination and efforts now 
to prevent a tidal wave of addictions, drug-related 
enterprises, corruption, instability, and conflict from 
overwhelming Africa's shores.
    If the committee agrees, I will submit my full testimony 
for the record and summarize here.
    Senator Feingold. Without objection.
    Ambassador Carson. Illegal drug trafficking in West Africa 
has reached epidemic proportions, and the problem could get 
much worse before it gets better, especially in countries like 
Guinea-Bissau. The transshipment of cocaine has increased 
dramatically throughout West Africa in recent years.
    Before 2005, seizures from all of Africa generally totaled 
less than 1 ton a year. Between 2005 and 2008, at least 46 tons 
of cocaine were seized in West Africa alone. This volume 
carries a wholesale value of approximately $2 billion, and a 
retail value 10 times that much. This is an amount that easily 
exceeds the incomes of some of the poorest countries in the 
region.
    West Africa is appealing to traffickers because of its 
relatively close proximity to cocaine-producing areas in Latin 
America. Traveling straight along the 10th parallel from South 
Africa to the Gulf of Guinea is only a 2-day journey by boat, 
or a 5- or 6-hour plane ride. Several other reasons also make 
West Africa an appealing transshipment destination. West 
Africa's borders are mostly unguarded and porous. Many 
governments have weak legal and judicial structures and customs 
authorities that simply do not work.
    Many countries in West Africa are also extremely poor. 
Salaries and wages are low, and corruption is high. In many 
parts of West Africa, 50 percent of the population lives on 
less than $2 a day, and the unemployment rate is well over 30 
percent.
    The trafficking of illegal drugs is a lucrative occupation 
in a society where money is scarce and jobs are hard to come 
by. Foreign drug traffickers usually prefer permissive 
environments, and many West African nations fall into that 
category. They choose to operate in countries with weak law 
enforcement and judicial systems, and thrive in areas where 
they can operate with impunity, either corrupting government 
officials or evading inept customs authorities. In these kinds 
of environments, drug traffickers are able to cultivate complex 
and symbiotic criminal and financial networks with the local 
political officials and law enforcement authorities.
    Our counternarcotics assessments throughout West Africa 
have provided valuable information about the nature of the drug 
threat and the willingness and capacity of West African 
governments to respond. We are working closely with our 
international partners, including the European Commission and 
with United Nations Office on Drugs and Crimes. The majority of 
the drugs transiting West Africa go into Western Europe, and 
the Europeans are eager to work with us to reduce the flow of 
drugs into their countries.
    Congress appropriated almost $14 million in fiscal 2009 to 
the State Department and the Department of Defense for 
counternarcotics assistance in Africa. The State Department is 
collaborating closely with the Department of Defense, DEA, and 
the rest of the interagency community to ensure U.S. Government 
assistance is used effectively in Africa, especially in West 
Africa. The Department of State also chairs an African 
Narcotics Working Group with broad USG participation. Senior-
level coordination is also taking place, particularly among the 
three agencies represented at this panel.
    Mr. Chairman, the focus of this hearing is drug trafficking 
in West Africa, but it would be a mistake if I did not share 
with the committee my serious concern about the spread of drug 
trafficking elsewhere around Africa. Kenya and Ethiopia, 
largely because of their excellent airline and transportation 
connections, are becoming major transshipment routes for heroin 
coming from Afghanistan and Pakistan. And South Africa has 
become a source for the manufacture and distribution of 
synthetic drugs that are being used in South Africa and shipped 
to Europe and South Asia.
    The first powerful wave of illegal drug trafficking has 
already hit Guinea-Bissau and the shores of West Africa. If 
African countries and the international community do not 
increase their vigilance and respond in an effective 
comprehensive manner, narcotics trafficking will undermine and 
destabilize a growing number of African states, not only in 
West Africa, but around the continent.
    Thank you.
    [The prepared statement of Ambassador Carson follows:]

  Prepared Statement of Hon. Johnnie Carson, Assistant Secretary for 
     Bureau of African Affairs, Department of State, Washington, DC

    Chairman Feingold, Ranking Member Isakson, and distinguished 
members of the committee, thank you for inviting me to testify at this 
important hearing on drug trafficking in West Africa. Thank you also 
for asking my colleagues from the Department of Defense (DOD) and the 
Drug Enforcement Administration (DEA) to join me at the witness table. 
We are united in our understanding of the serious threat that drugs and 
drug trading are to Africa and to United States interests. Our 
partnership and coordination are essential to any success in deterring 
this threat.
                       a rapidly growing problem
    Drug trafficking, especially of cocaine, has increased dramatically 
through West Africa in recent years. Before 2005, seizures from all of 
Africa rarely totaled more than 1 ton a year. Between 2005 and 2008, at 
least 46 tons of cocaine were seized in West Africa alone. By 2007, the 
Executive Director of the United Nations Office on Drugs and Crime 
(UNODC) described West Africa as ``under attack.'' Access to shifting 
global cocaine markets drove traffickers to look for new routes.
    Global cocaine markets have shifted because of demand, supply, and 
the value of the dollar. Cocaine use in the United States has declined, 
while use in Europe has increased. Law enforcement efforts in the 
United States and Latin America have made it harder for traffickers to 
move cocaine to United States markets. The declining value of the U.S. 
dollar, relative to the euro, may also have influenced the shift toward 
European markets. As European law enforcement made it more difficult to 
move cocaine along direct routes from South America to Europe, 
traffickers began to look for alternate ways to access the European 
markets.
    West Africa is appealing to traffickers for several reasons. It has 
endured a staggering level of poverty, which promotes a susceptibility 
to corruption: On average, 50 percent of the population lives on less 
than $2 a day. West Africa lies in close proximity to Latin America. 
Dakar, Senegal, is 700 miles closer to Recife, Brazil, than it is to 
Paris, France. West Africa's borders also are mostly unguarded and 
porous. The region boasts more than 2,600 miles of coastline. In 
perspective, our Pacific coast (minus Alaska) and Atlantic coast each 
are less than 2,100 miles long. West Africa's area and population are 
slightly less than that of our contiguous 48 States. Many governments 
do not have the legal systems, judicial structures, plans, funding, 
resources, and political will to combat drugs. Half the region's 
population is under the age of 18 and the unemployment rate of the 
work-age population average is 30-50 percent. Thus, the trafficking of 
illegal narcotics is a lucrative alternative in a culture disposed to 
view narcotics like any other commodity to buy and sell.
    Moreover, foreign traffickers usually prefer unstable but not 
chaotic operating environments. They choose to operate in countries 
with weak law enforcement and judicial systems and thrive in areas 
where they can operate with impunity--either by corrupting officials or 
by inept systems. West African nations like Guinea-Bissau and Guinea 
fall into these categories.
    In some countries, we can rely on local cooperation to prosecute 
and expel foreign traffickers, especially if such action displaces 
outsiders from the trade. However, such cooperation is compromised when 
the foreign traffickers are able to cultivate complex, symbiotic 
networks with the local elite.
     drug trafficking in west africa harms united states interests
    Though the majority of the drugs transiting West Africa do not come 
to the United States, the proceeds flow to the same South American drug 
trafficking organizations that traffic drugs to the United States. This 
illicit activity reinforces and bolsters their financial strength. 
Guinea-Bissau's GDP is $340 million; that is the wholesale value of 6 
tons of cocaine, which can easily be transshipped over 1 to 2 months. 
This creates a threat to good governance, local and regional stability, 
and development in West Africa. UNODC has noted that, ``The 
relationship between diamond smuggling and the civil wars in Sierra 
Leone and Liberia has been well documented, but, at their peak, profits 
accruing from this activity amounted to some tens of millions of 
dollars per year. The potential destabilizing influence of the cocaine 
traffic, where the value of a single consignment can exceed that sum, 
is very real.''
    Drug trafficking poses at least two threats to good governance, a 
principal focus of United States diplomacy and foreign assistance in 
West Africa. First, trafficking normally is facilitated by corrupting 
public officials from law enforcement and judicial actors to the 
highest levels of government. Second, politicians could look to drug 
money to finance their elections.
    Being a transit state is detrimental to a country's development. 
The government has less to invest in health or education, because those 
resources have been diverted to address the insecurity resulting from 
possible trafficking-related violence. Investors are less inclined to 
do business in transit countries; unstable environments are risky and 
operating in high-crime areas entails higher business costs.
    Being a transit state is also harmful to public health. Though 
initially most transit states in Africa do not have markets for illegal 
drug consumption, eventually they develop. In West Africa, local 
facilitators of trafficking networks are believed to be paid in 
cocaine. Much of this is smuggled to Europe but anecdotal evidence 
suggests small domestic markets for cocaine are already developing.
            usg efforts to stop the drug flow and obstacles
    The Department of State recognizes the serious threats posed by 
drug trafficking in West Africa. With our interagency colleagues, we 
have engaged in a careful planning process. The Department of State's 
Bureau for International Narcotics and Law Enforcement Affairs (INL) 
has been leading interagency counternarcotics assessments throughout 
West Africa. These assessments have provided valuable information about 
the nature of the drug threat and the willingness and capacity of West 
African governments to respond to the threat. A comprehensive 
counternarcotics strategy requires both the interdiction of the drugs 
and the dismantling of the drug trafficking organizations (DTOs). Our 
European partners are focused largely on interdiction, which is logical 
as the majority of the cocaine flows to Europe. We are primarily 
working to build the law enforcement and judicial capacity of West 
African governments to effectively counter the DTOs. This complements 
the European focus and fits well with United States security, 
governance, and development objectives in West Africa.
    Rule of law and judicial capacity strengthen the ability of 
emerging democracies of the region to prevent or respond to 
transnational issues such as rising drug trafficking. One of the areas 
our Interagency Task Force has looked at through the assessments is 
countries' counternarcotics legal frameworks. While most West African 
states have many of the elements in place to support more robust 
national counternarcotics efforts, there are some ways in which the 
laws could be improved. In some countries, there is significant 
judicial discretion allowed in sentencing for even the most serious 
drug offenses. In Togo and The Gambia, judges can decide to sentence 
traffickers to prison or simply to fine them. This invites corruption. 
Many countries lack the legal concepts of conspiracy and plea 
bargaining. Both are powerful legal tools in combating organized crime. 
Asset forfeiture is another helpful legal and financial tool. West 
African countries that have some sort of asset forfeiture laws often 
require a conviction before they can seize assets. By contrast, many 
other countries around the world have alternative legal mechanism that 
provide a broader basis and more efficient means for seizing and 
forfeiting assets related to criminal activity.
    The national agencies charged with counternarcotics missions across 
West Africa vary from actively facilitating trafficking to risking 
their lives to stop it. Even in agencies that have the will to counter 
drug trafficking, there are common challenges to their ability to do so 
effectively. Many do not know how to gather and analyze counterdrug 
intelligence. Most of the big seizures in West Africa have occurred by 
chance or through a foreign tip off. Further, the agencies do not know 
how to conduct investigations. Basic policing is a challenge and most 
agencies will require significant assistance before being able to 
conduct complex investigations. Counternarcotics programs and 
strategies are inherently interagency. Border officials and traffic 
cops need to coordinate with lead counternarcotics police agencies 
that, in turn, must work closely with prosecutors or investigative 
judges to develop a case. This is a significant challenge.
    Like law enforcement, the judicial sectors across West Africa vary 
widely. Senegal, for example, is a society with a capable judiciary and 
a respect of the courts and the rule of law. Sierra Leone recently 
convicted traffickers in a historic case connected to a July 2008 
cocaine bust. Guinea-Bissau, on the other hand, has not tried a drug 
case since 2005. Even with such mixed results, there are common 
challenges. The courts have sizeable backlogs. In many countries, 
prisons hold accused persons who have been awaiting trial longer than 
the maximum sentence they would receive if found guilty. In the rare 
cases where West African countries have arrested and tried foreign 
traffickers, the traffickers often hire talented private defense 
attorneys. Further, due to capacity problems, defendants are often held 
too long before being charged, which has resulted in some dismissals. 
Even when this does not happen, police and prosecutors often prepare 
cases and witnesses poorly, with the alleged drug seized neither proven 
to be cocaine nor tied to the defendant. Finally, countering judicial 
corruption is a challenge around the world, and West Africa is no 
exception. This is an area of serious concern and will require careful 
attention.
    As with the rest of the criminal justice system, prisons vary 
greatly from country to country. Guinea-Bissau has no civilian prison 
whatsoever, though one is nearing completion. Togo, on the other hand, 
has a prison system that is functioning remarkably well given the 
extreme lack of resources. The main challenge corrections systems face 
is maintaining custody over accused and convicted traffickers. Security 
at many prisons is not good and traffickers have access to significant 
financial resources with which to bribe prison officials.
    Despite the significant challenges facing West Africa, there is 
reason for hope. Oil-wealthy Nigeria is entirely unique: Numerous and 
very experienced Nigerian traffickers have been deployed worldwide over 
decades. But despite its many problems the Government of Nigeria has 
demonstrated increased political will in fighting narcotics. U.S.-
donated body scanners at Nigeria's four international airports are 
having a deterrent effect, causing traffickers to shift their 
operations to seaports and land borders, where adequate protection is 
lacking, or to airports in neighboring countries. Nigeria's National 
Drug and Law Enforcement Agency (NDLEA) flexed its muscles in arresting 
a drug kingpin, processing an extradition, and convicting 1,231 of 
1,239 traffickers in 2008. The Attorney General recently approved the 
embedding of a USG sponsored drug investigations specialist within the 
NDLEA. The Government of Cape Verde has vast potential as a trans-
Atlantic partner for regional interdiction activities, as an 
intelligence platform, and as a facilitator of dialogue with Guinea-
Bissau. It benefits from: A strong and stable democracy; its strategic 
location; its three U.S. Federal Aviation Administration-certified 
airports; its excellent track record on cooperation with DOD's United 
States Africa Command (AFRICOM), NATO, the European Union and United 
States and European law enforcement agencies; and, its success at 
curbing drugs from Latin America.
    Furthermore, we hope that our projected reestablishment of a formal 
diplomatic presence in Bissau will help improve what we know about the 
problem there and encourage the host government to raise its profile on 
this important matter.
    Department of State assistance is targeted and carefully monitored. 
For instance, in Ghana we will support a judicial advisor this year to 
develop further capacity to prosecute complex drug cases. In countries 
where there is not yet a strong understanding of the domestic 
implications of being a transit state, we will use public diplomacy to 
build this awareness. Our embassies have been instrumental in 
facilitating the expulsion of traffickers into U.S. custody, which has 
a powerful deterrent effect.
    The Department of State's counternarcotics assistance programs are 
shaped according to the following principles. Above all, we do not want 
our assistance inadvertently harming innocents. We don't want equipment 
we provide misused. Since donated boats or radios could be used to 
facilitate trafficking, for example, such assistance must be provided 
responsibly. Second, counternarcotics operations are dangerous and 
should not expose our West African partners to unnecessary risks that 
they have not been prepared to address.
    Counternarcotics assistance should include both operational support 
and institutional reform. Providing training and equipment are 
important components of assistance strategies, but we must also address 
institutional incentives and structures. For example, prosecutors might 
not know how to oversee a complex investigation or turn it into a 
winning case. Training in these areas should be part of the assistance 
provided. Institutionally, the prosecutorial service may not be 
structured to encourage complex investigations. Promotions of these 
prosecutors might factor the number of convictions without regard for 
the complexity of cases. These structures must be reformed if 
prosecutors are to learn and implement complex prosecutions.
    The U.S. Interagency Task Force has collaborated closely to 
confront these challenges. At the working level, State, DEA, and DOD 
jointly have conducted all assessments and now include the FBI, 
Treasury, and USAID on a case-by-case basis. The Department of State 
also hosts an African counternarcotics working group with even broader 
interagency participation. Senior-level coordination is also taking 
place, particularly between the three agencies represented on this 
panel. Similarly, international coordination is also taking place at 
both the working and policy levels. One of my INL colleagues will be 
leading the U.S. delegation to meetings with the EU Drug troika in the 
coming weeks. We look forward to working more closely with AFRICOM to 
help build capacity, provide data analysis and management, facilitate 
interoperability, and promote limited interdiction, where feasible.
    Finally, there is much that the United States can learn and do in 
concert with the Europeans, Latin Americans, and international 
organizations in order to fight increasing narcotrafficking in the 
region. Increasing our own knowledge of, and ability to track, trans-
Atlantic contraband and developing regional African capacity through a 
reliable, willing partner (such as Cape Verde) and its government could 
be one of our more productive and cost-effective efforts as part of an 
integrated approach.
    For fiscal year 2010, the Department has requested $7.96 million in 
narcotics and law enforcement assistance for West Africa. Our primary 
targets are to develop capacity in the law enforcement and judicial 
sectors in Guinea-Bissau ($3 million), Cape Verde ($2 million), Nigeria 
($2 million), Ghana ($500,000), Sierra Leone ($250,000), Guinea 
($110,000) and Burkina Faso ($100,000). To complement these efforts, we 
propose applying $42.4 million in other Department resources to bolster 
democracy, governance, and rule-of-law programs in these countries. As 
Secretary Clinton has indicated, the Department requires sufficient 
personnel and financial resources to carry out its missions, and we 
welcome your support in helping us do so.
    I look forward to hearing from my colleagues, listening to your 
insights, and consulting you further as we address this serious issue. 
Thank you for your invitation, and for your consideration and support.

    Senator Feingold. Thank you so much, Assistant Secretary 
Carson.
    Mr. Harrigan.

  STATEMENT OF THOMAS M. HARRIGAN, CHIEF OF OPERATIONS, DRUG 
           ENFORCEMENT ADMINISTRATION, WASHINGTON, DC

    Mr. Harrigan. Good morning. Chairman Feingold, Ranking 
Member Isakson, Senator Kaufman, on behalf of the Drug 
Enforcement Administration's Acting Administrator, Michelle 
Leonhart, I want to thank you for your continued support of the 
men and women and the opportunity to testify about the scope 
and dynamics of drug trafficking in West Africa, as well as 
related threats.
    Africa is experiencing an unprecedented rise in drug 
trafficking and the growth of organized crime in Africa is an 
increasing national security threat, as evidenced by the 
assimilation of South American drug-trafficking networks with 
African and European buyers and distributors. The current 
political and economic environment in Africa presents an 
unprecedented opportunity for drug traffickers and terrorists 
to flourish and expand their operations on the continent. 
Africa's weak and failing states provide havens for the drug 
cartels and international criminals alike. An inadequate 
judicial infrastructure exacerbates the problem and presents a 
very real threat. South American drug cartels have impacted 
much of West Africa, due to the rising demand for cocaine and 
the higher profits that can be made in the European drug 
market.
    As the lead U.S. Federal drug law enforcement agency, DEA 
is integral in the realization of a successful counternarcotics 
plan in Africa. Presently, DEA has 83 offices in 62 countries 
around the world, and works with host-government counterparts 
in assessing drug threats, gathering intelligence, targeting 
major drug cartels, and assisting host governments in 
developing comprehensive counternarcotics strategies. 
Currently, DEA has four offices on the continent of Africa--in 
Nigeria, Ghana, Egypt, and South Africa--and a new office 
expected to open by the end of the year in Kenya.
    DEA's primary mission in Africa is to disrupt and dismantle 
the most prolific drug, chemical, money laundering, and 
narcoterrorism organizations on the continent, all of which 
have a direct impact on the United States. DEA attacks these 
criminal organizations through an integrated intelligence-
driven enforcement process that targets the command-and-control 
elements of these cartels.
    A secondary part of our mission calls for broad interagency 
support from our U.S. Government partners for assistance in 
capacity-building and mentoring programs with African law 
enforcement counterparts, with the intent of extending the rule 
of law throughout Africa.
    Current intelligence indicates the principal drug threats 
in Africa are South American cocaine, Southwest Asian heroin, 
precursor chemicals primarily used for production of 
methamphetamine, drug money laundering, narcoterrorism, and 
other drugs, such as marijuana, hashish, and khat.
    In the past 24 months, DEA has initiated bilateral and 
multilateral criminal investigations with our law enforcement 
counterparts in Africa, Europe, and Asia to attack these 
threats. Successes include seizures of multiton quantities of 
cocaine and bringing those responsible to U.S. courts to face 
prosecution.
    Earlier this year, a significant Colombian cell head was 
expelled from Ghana and transported to the Southern District of 
New York to face drug charges. This cell head was identified by 
DEA as a former member of the now-defunct Cali cartel and was 
wanted for charges stemming from a 1992 seizure of 12 tons of 
cocaine in Miami, then the United States largest cocaine 
seizure.
    DEA's extraterritorial authority is a powerful tool that 
removes the barrier of relative impunity of areas of weak 
government control around the globe, and makes those U.S. 
prosecutions possible.
    DEA's long-term strategy in Africa includes a series of 
programs that will include DEA and U.S. Government partners to 
address operational and capacity-building requirements in 
Africa. Enforcement activities in Africa have demonstrated the 
need for African counterparts to develop specialized 
investigative teams to conduct investigations into significant 
local, regional, and international drug cartels.
    DEA is working very closely with Departments of Defense and 
State to cooperatively train, equip, and support specialized 
units within host-nation law enforcement authorities. The goal 
is to improve the ability of law enforcement agencies in Africa 
to investigate narcotics-related crimes ranging from simple 
low-impact seizures to large-scale multifaceted conspiracy 
cases.
    DEA's global presence has already provided huge dividends 
in assessing the drug threat developing in Africa. DEA will 
continue to develop these investigations and continue 
coordinating with U.S. Government agencies in intelligence-
sharing and capacity-building programs.
    Chairman Feingold, Ranking Member Isakson, Senator Kaufman, 
and distinguished members, I want to thank you again for the 
opportunity to appear before you today to discuss this 
important issue, and welcome any questions that you may have.
    Thank you, sir.
    [The prepared statement of Mr. Harrigan follows:]

  Prepared Statement of Thomas Harrigan, Assistant Administrator and 
  Chief of Operations, Drug Enforcement Administration, Department of 
                        Justice, Washington, DC

    Good morning, Chairman Feingold, Ranking Member Isakson, and 
distinguished members of the subcommittee. On behalf of the Drug 
Enforcement Administration's (DEA) Acting Administrator, Michele M. 
Leonhart, I want to thank you for your continued support of the men and 
women of DEA and the opportunity to testify about the scope and 
dynamics of drug trafficking in West Africa as well as related threats.
                                overview
    Over the past decade, international drug law enforcement efforts 
have focused principally on the major source countries, and limited 
resources have been dedicated to other areas impacted by the global 
drug trade, such as the African Continent. DEA investigative efforts 
and those of other Western law enforcement agencies have chronicled the 
significant increase in Africa's utilization as a transshipment point, 
storage, cultivation, and manufacturing point for narcotics destined 
for Europe, and, to a lesser extent, other consumer markets, including 
the United States. The versatility of transnational criminal 
organizations is well-known, as is their penchant for finding and 
exploiting vulnerable regions of the world to further their illicit 
activities. Unfortunately, Africa is such a place, with its strategic 
geographic location, and, in many instances, weak governments, endemic 
corruption, and ill-equipped law enforcement agencies.
    As a single mission agency, DEA's focus in Africa is to disrupt or 
dismantle the most significant drug, chemical, money laundering, and 
narcoterrorism organizations on the continent. A secondary--but no less 
important--part of this mission will be the long-term effort to address 
law enforcement capacity-building endeavors and mentoring programs with 
our African counterparts. The cocaine, heroin, chemical, money 
laundering, and narcoterrorism threats in Africa have an impact on the 
United States, particularly since some of the drug trafficking 
organizations (DTOs) that smuggle illicit drugs in the United States 
are the same as those using Africa as a base of operations for 
smuggling operations into Europe and the Middle East. By expanding 
DEA's operational capabilities into Africa, DTOs will increasingly find 
it difficult to operate in Africa with continued relative impunity. 
While DEA is increasing its presence in Africa, a critical part of 
DEA's overall Africa strategy calls for broad interagency support from 
U.S. Government partners for assistance in capacity-building and 
mentoring programs with African law enforcement counterparts.
    DEA's presence in Africa consists of four offices established on 
the continent of Africa (Nigeria, Ghana, Egypt, and South Africa), and 
is anticipating opening an office in Kenya. DEA is striving to enhance 
its intelligence collection and operational capacity to address the 
African drug threat. At the same time, DEA is working closely with its 
U.S. law enforcement, military, intelligence, and diplomatic 
counterparts to counteract the wave of drug-related crime impacting 
many African nations. DEA also is engaging foreign law enforcement 
agencies and governments in an effort to coordinate counternarcotics 
strategies in Africa. While DEA remains a single-mission agency with a 
law enforcement focus, decades of experience in drug source and transit 
countries has evidenced the need for close coordination with U.S. 
Government agencies focused on intelligence and capacity-building 
programs. DEA alone does not have the resources or authorities to 
implement parts of our Strategic Concept for Africa, and therefore will 
continue to work cooperatively to leverage the resources and expertise 
of our interagency partners.
                         drug threats in africa
    For DEA, the principal drug threats in Africa are: Cocaine, 
Southwest Asian heroin, methamphetamine precursor chemicals, drug money 
laundering, narcoterrorism, and other drugs such as marijuana, hashish, 
and khat.
Cocaine
    West Africa is a transshipment location for metric-ton quantities 
of cocaine being transported to Europe by South American DTOs. A 2007 
U.S. Government assessment estimated that between 180 and 240 metric 
tons of cocaine transited established transshipment points in West 
Africa most ultimately destined for Europe. Colombian, and Venezuelan 
traffickers are entrenched in West Africa and have cultivated 
longstanding relationships with African criminal networks to facilitate 
their activities in the region. Criminal groups take advantage of 
Africa's porous borders, poorly equipped and undertrained law 
enforcement agencies, and corrupt government officials to facilitate 
their trafficking operations. The significant rise in cocaine 
trafficking from South America to Europe, via established routes in 
Africa, presents a threat not only to Europe, but also to the United 
States. The same South American DTOs responsible for transporting major 
cocaine shipments to the United States are using the African Continent 
as a transit base/storage location for cocaine destined for European 
markets. The drug proceeds from cocaine trafficking return to these 
South American DTOs to further their illegal activities in the United 
States, Africa, and Europe.
Southwest Asian Heroin
    DEA investigations, intelligence and seizure information identify 
Africa as a staging ground and transit location for Southwest Asian 
(SWA) heroin entering global markets. The heroin is principally 
smuggled by West African criminal groups from Pakistan through Middle 
Eastern countries and East Africa to West Africa. Kenya, Tanzania, 
South Africa, Nigeria, and Ghana are the principal transit zones in 
East and West Africa. The heroin is concealed in air cargo, luggage, 
and body-carried by couriers for eventual transshipment to the United 
States and Europe.
Methamphetamine Precursor Chemicals
    Current drug and laboratory seizure statistics suggest that the 
vast majority of the methamphetamine consumed in the United States is 
produced by Mexico-based DTOs. Since methamphetamine is a synthetic, 
clandestinely produced drug, its production and distribution relies 
exclusively on the ability of Mexican organizations to obtain key 
precursor chemicals, particularly pseudoephedrine and ephedrine. Since 
2006, DEA investigations and intelligence collection initiatives 
indicate sub-Saharan Africa has become a major transshipment location 
for precursor chemicals destined for the Americas.
Drug Money Laundering
    The laundering of drug proceeds in Africa is a major concern. DEA 
investigations and intelligence collection initiatives have revealed 
evidence of money laundering on the continent is rapidly expanding. 
Africa does not constitute a global money laundering hub, but its 
permissive and corrupt environments offer opportunities for traffickers 
and their money brokers to operate with relative impunity. DEA has 
observed the following money laundering methods in Africa: Bulk 
currency smuggling and storage, illicit wire transfers, Informal Value 
Transfer Systems (IVTS) or ``hawalas,'' corrupt foreign exchange 
houses, casinos, laundering through precious gems (particularly 
diamonds), real estate investment and trade-based money laundering 
(including the used-car market). Often several laundering methods are 
used in the same operation to repatriate proceeds to the criminal 
beneficiaries. As evident from the scope of methods available to 
traffickers, deficiencies in some African economies (such as sparse 
banking outlets, cash-dependent markets and inadequate regulation) do 
not discourage money laundering.
Narcoterrorism Activity
    The threat of narcoterrorism in Africa is a real concern, including 
the presence of international terrorist organizations operating or 
based in Africa, such as the regional threat presented by al-Qaeda in 
the Lands of the Maghreb (AQIM). In addition, DEA investigations have 
identified elements of Colombia's Fuerzas Armadas Revolucionarias de 
Colombia (FARC) as being involved in cocaine trafficking in West 
Africa. In a large number of African states, there are also insurgent/
antigovernment groups undermining stability, the rule of law, and the 
weak central governments, all of which are conditions exploited by 
international drug and precursor chemical organizations. The weak 
economies throughout Africa make drug trafficking one of the more 
profitable ways for criminal organizations to generate money, certainly 
a point not overlooked by terrorist and insurgent organizations. The 
transportation, money laundering, and logistical infrastructures 
utilized by DTOs in Africa are vulnerable, wittingly or unwittingly, 
for use by terrorist organizations.
Marijuana, Hashish, and Khat
    Marijuana, hashish, and khat are additional drug threats currently 
posed by DTOs operating in Africa and are serious issues of concern to 
our African counterparts due to their growing rates of abuse on the 
African Continent. Marijuana is the primary drug of abuse in Africa. 
Marijuana production takes place in almost every African country for 
internal sale, and also is smuggled to Europe. The primary drug 
trafficked in northern Africa is hashish. Each year Spanish drug law 
enforcement authorities seize massive amounts of hashish, smuggled into 
the Iberian Peninsula from Morocco. Hashish traffickers and cocaine 
traffickers now utilize the same routes to transport those drugs into 
Spain. Finally, khat is smuggled into the United States from East 
Africa via European countries, where the plant is legal. As a result, 
millions of dollars a year are being sent to Somalia and other 
countries in the Horn of Africa that may end up in the coffers of 
terrorist networks.
                   dea's strategic concept for africa
    DEA's principal mission in Africa is to identify, target, and 
dismantle significant international DTOs. In the last 24 months, DEA's 
near term strategy for Africa has focused investigative efforts to 
uncover those DTOs which represent a threat to the United States. or 
our law enforcement counterparts in Africa, Europe, and Asia. Once 
identified, DEA has initiated bilateral and multilateral criminal 
investigations into these groups to great effect. DEA has developed a 
long-term strategic concept for our efforts in Africa. The strategic 
concept includes a series of programs that will enable DEA and U.S. 
Government partners to address operational and capacity-building 
requirements in Africa.
African Investigative Units
    Enforcement activities in Africa have demonstrated the need for 
African counterparts to develop specialized investigative teams to 
conduct investigations into significant local, regional, and 
international DTOs. DEA is currently working to cooperatively train, 
equip, and support specialized units within host-nation law enforcement 
authorities. DEA will continue to work with the Department of State 
(Bureau of International Narcotics & Law Enforcement Affairs--INL) in 
this effort.
DEA Training in Africa
    The DEA International Training Section (TRI) will dedicate the 
necessary training and mentoring to Africa's law enforcement community, 
which is necessary to combat drug trafficking in Africa and support 
DEA's strategic concept for Africa. TRI will seek to provide the 
African law enforcement officers with knowledge of investigative and 
tactical techniques. The goal is to improve the ability of law 
enforcement agencies in Africa to investigate narcotics-related crimes 
ranging from simple seizure cases to large-scale conspiracy cases.
    During 2006-07, DEA conducted nine training seminars in Africa with 
students from 26 African nations. The seminars ranged from instruction 
in Basic Drug Enforcement Operations to the Drug Unit Commanders 
Course. In fiscal year 2009, DEA is participating in seven training 
courses for African counterparts in Botswana, South Africa, and 
Morocco. The courses will include Asset Forfeiture, Drug Unit 
Commanders, Basic and Advanced Agent Course, Airport Interdiction, and 
Clandestine Laboratory Operations.
International Law Enforcement Academies/Training Centers
    DEA will continue to participate in the Department of State's 
International Law Enforcement Academy (ILEA) in Botswana and continue 
to sponsor African law enforcement counterparts to attend its courses. 
The mission of the ILEA is to support emerging democracies, help 
protect U.S. interests through international cooperation, and to 
promote social, political, and economic stability by combating crime. 
The ILEA concept and philosophy creates a united effort by all of the 
participants to include government agencies and ministries, trainers, 
managers and students to achieve the common foreign policy goal of 
international law enforcement.
    In July 2000, the governments of the United States and Botswana 
entered into an agreement for establishing an ILEA that would provide 
training for member countries of the Southern African Development 
Community (SADC), East Africa and other eligible countries in sub-
Saharan Africa.
         ongoing dea effort to counter the african drug threat
    DEA recognizes that in order to effectively attack the 
international drug trade it has to forward deploy its personnel into 
the foreign arena. DEA has the largest Federal law enforcement presence 
overseas. DEA has 83 offices in 62 countries and works with host 
governments in assessing drug threats, gathering intelligence, 
targeting major DTOs, and assisting host governments in developing 
comprehensive counternarcotics strategies. DEA agents understand the 
importance of working to establish relationships of trust with host-
nation governments in order to accomplish DEA's mission.
    DEA's global presence has already proved to be essential in 
assessing the drug threat developing in Africa. Much of the 
intelligence obtained to date on the activities of DTOs operating in 
Africa has come from ongoing DEA investigations on the continent and in 
other DEA domestic and foreign offices. DEA will continue to develop 
these investigations and enhance our understanding of how DTOs in 
Africa function, so we are best positioned to attack their command and 
control.
    As noted, DEA currently has four offices established on the 
continent of Africa (Nigeria, Ghana, Egypt, and South Africa), and 
plans to open a new office in Kenya. These offices are strategically 
located across the continent to utilize limited manpower and financial 
resources. DEA's offices serve as regional hubs in which DEA 
coordinates investigative activities and implements its regional 
strategy.
Organizational Attack
    In order to prioritize and maximize the use of DEA's manpower and 
financial resources, DEA works with DOJ partners to identify those 
organizations having the most significant impact on international drug 
availability. The result of this collaboration has been the 
identification and targeting of the full scope of an organization's 
criminal activities. Since 2007, DEA has identified at least nine top-
tier South American and Mexican DTOs that have established operations 
in Africa. By attacking these groups in the source and transit zones, 
as well as their operations in other areas of the world, a unified 
targeting strategy is being implemented. As the same South American 
DTOs transporting cocaine into West Africa are also responsible for 
multiton cocaine shipments into Mexico and the United States, DEA's 
organizational attack strategy calls for investigative efforts against 
these organizations on both sides of the Atlantic Ocean.
International Drug Flow Attack Strategy
    A key element in combating international drug trafficking is the 
concerted and coordinated efforts of the interagency community to 
jointly identify chokepoints vulnerable to enforcement efforts and 
simultaneously direct assets to vigorously target the identified 
chokepoints on a coordinated and sustained basis. To this end, DEA 
developed an International Drug Flow Attack Strategy, which has the 
primary objective to cause major disruption to the flow of drugs, 
money, and chemicals between the source zones and the United States. 
The strategy includes an integrated intelligence-enforcement process 
that rests on four pillars: Intelligence-driven enforcement, sequential 
operations, predictive intelligence, and law enforcement deception 
campaigns. To stem the flow of drugs into the United States, DEA will 
continue to implement this successful Drug Flow Attack Strategy by 
expanding enforcement initiatives with our global law enforcement 
partners and the military. Where applicable, DEA will begin to engage 
African counterparts in these initiatives and develop Africa specific 
enforcement initiatives.
Financial Attack
    The U.N. World Drug Report 2007 affirms that the global illicit 
drug trade is as lucrative as it is poisonous. This global illicit drug 
trade generates an estimated $322 billion a year in revenue, far more 
than the estimated profits from international human trafficking, arms 
trafficking, and diamond smuggling combined. To make a significant 
impact on the drug trade in the United States and internationally, DEA 
is tracking and targeting illicit drug money back to the sources of 
supply before it can be used to finance the next production cycle of 
illegal drugs. DEA's financial investigations are driven by strategies 
designed to inflict permanent damage against DTOs. By denying DTOs the 
revenue from the distribution of illegal drugs, the drug traffickers' 
capability to acquire or produce additional drugs and support their 
organizations is hampered. DEA's perspective on the money laundering 
threat is twofold: First, DEA is focused on proceeds generated by the 
illegal drug industry; second, DEA is addressing the threat that drug 
proceeds represent as a means of financing international terrorist 
organizations.
Extraterritorial Authority
    DEA has the legal authority to investigate and charge drug 
traffickers with extraterritorial offenses under U.S. Code Title 21  
959. Section 959 gives DEA extraterritorial jurisdiction to investigate 
and prosecute drug offenses with a nexus to the United States even 
though the drugs in question have not actually entered the United 
States. The 959 statute has proven to be an invaluable investigative 
tool in pursuing drug trafficking organizations overseas where we can 
satisfy the requirement for a nexus to the United States.
    Additionally, Title 21 U.S.C.  960a gives DEA an enforcement tool 
for narcoterrorism. Like section 959, section 960a gives DEA 
jurisdiction to investigate and prosecute extraterritorial offenses if 
a link between the drug offense and a specified act of terrorism or a 
terrorist organization can be established. Under this statute, the 
prescribed punishment is twice the punishment provided for the 
underlying drug offense. Significantly, there is no requirement for a 
nexus to the United States for the underlying drug offense, a concept 
that is particularly important in cases involving heroin from 
Afghanistan, and could also be applied to international terrorists 
involved in the African drug trade.
    Sections 959 and 960a and traditional conspiracy charges under 21 
U.S.C.  846 and 848, provide the legal authority to prosecute 
transnational DTOs, and the robust sentencing provisions in these 
statutes provide incentive for defendants to cooperate with 
investigators, promoting success in investigations.
                      dea investigative successes
    A number of recent successes detailed below demonstrate how the 
cooperative efforts of the United States and foreign law enforcement 
counterparts are addressing the African drug threat.

  <bullet> In September 2008, a Colombian national was arrested by 
        Togolese officials based on a narcotics investigation targeting 
        a South American DTO operating in West Africa, which resulted 
        in the seizure of approximately 300 kilograms of cocaine. DEA 
        was able to identify the Colombian as the subject of an 
        outstanding arrest warrant issued by the Southern District of 
        Florida (SDFL) pursuant to a 1992 Federal investigation in 
        Miami, FL. The arrest warrant was based on an indictment for 
        cocaine trafficking related to the seizure of 12,500 kilograms 
        of cocaine secreted in cement fence posts--the largest single 
        seizure of cocaine in U.S. history at the time. The Colombian 
        was identified as the head of a cell operating in Miami working 
        directly for former Cali Cartel leader Miguel Rodriguez-
        Orejuela. In January 2009, DEA coordinated the expulsion of 
        this individual from Togo based on the SDFL arrest warrant, and 
        he is awaiting trial in Miami. This operation demonstrated that 
        South American DTO personnel based in West Africa are in fact, 
        experienced, high-level operatives.
  <bullet> In July 2008, Sierra Leone authorities seized approximately 
        600 kilograms of cocaine from a twin-engine airplane that 
        landed at Lungi International Airport in Freetown. The aircraft 
        was marked with a Red Cross emblem and had originated in 
        Venezuela. The flight crew fled the area upon landing; however, 
        Sierra Leone officials quickly apprehended the flight crew and 
        subsequently arrested other South American nationals in Sierra 
        Leone involved in the smuggling operation. The investigation 
        revealed the defendants and cocaine were linked to a major 
        South American DTO. DEA worked with international partners and 
        Sierra Leone officials to develop a criminal prosecution 
        against those involved. In April 2009, 15 individuals involved 
        with this DTO in Sierra Leone were convicted on narcotics 
        charges, several of which were subsequently expelled to the 
        United States to face charges under Title 21, U.S.C.  846.
  <bullet> In 2007, DEA, French, and Congolese law enforcement 
        counterparts conducted a successful operation which resulted in 
        the seizure of approximately 9 tons of pseudoephedrine in 
        Kinshasa, Democratic Republic of the Congo (DRC). The 
        investigation revealed a Mexican-based organization was 
        responsible for the pseudoephedrine shipment, as well as 
        several prior precursor chemical shipments that transited the 
        DRC, Kenya, Tanzania, Ethiopia, and South Africa en route to 
        Mexico. Since the March 2007 operation, DEA has assisted with 
        the seizure of several other multiton pseudoephedrine and 
        ephedrine shipments in Africa that have been linked to Mexican 
        DTOs.
  <bullet> In 2006, DEA initiated an investigation targeting the head 
        of a Kabul-based DTO operating a major heroin processing 
        laboratory in Afghanistan and as the source of supply for 
        heroin groups in West Africa and Europe. During UC operations 
        in Ghana and Afghanistan, DEA agents negotiated a 100 kilogram 
        heroin deal, which was intended for distribution in the United 
        States. In late 2007, the principal target and an associate 
        were arrested by Ghanaian authorities and an expulsion order 
        (to the U.S.) was issued by the Ghanaian courts. Both 
        individuals were quickly transferred to U.S. custody and 
        transported to Virginia to face charges issued under a title 
        21, section 959 indictment from the Eastern District of 
        Virginia. Based on their conviction, in June 2008, the subjects 
        of the investigation received prison sentences of 24 and 17 
        years, respectively. This investigation disrupted the West 
        African trafficking operations of a major Afghan heroin DTO, 
        included successful DEA UC operations in Ghana and Afghanistan, 
        and was the first time title 21, subsection 959 authority was 
        used by DEA in Africa.

    DEA is continuing to target the most significant DTOs operating in 
Africa, and I fully expect continued success. The achievements 
described also must be attributed to the brave and determined African 
police counterparts and their willing governments. Without their 
cooperation, coordination, and support, the successes realized in 
Africa would not be possible.
capacity of regional governments and impediments to successful drug law 
                        enforcement initiatives
    Africa is experiencing an unprecedented rise in drug trafficking, 
and the growth of organized crime in Africa is an increasing national 
security threat, as evidenced by the integration of South American drug 
trafficking networks with African and European buyers and distributors. 
Organized criminal groups are exploiting governmental weakness and 
corruption prevalent in many African nations. There are obvious signs 
that Africa's vulnerability is being exploited by some of the world's 
most dangerous drug trafficking organizations. The global expansion of 
West African drug trafficking syndicates, such as Nigerian DTOs, has 
been documented from Bangkok to Kabul; from Nairobi to Cape Town; and 
from Lima to Detroit. This expansion would not be possible without safe 
bases of operation on the African Continent.
    South American cocaine DTOs have impacted much of West Africa due 
to the rising demand for cocaine and the higher profits that can be 
made in the European drug market. The wholesale price for a kilogram of 
cocaine in Europe can exceed the cost of the same kilogram in the 
United States by two or three times. The current political and economic 
environment in Africa presents an unprecedented opportunity for drug 
traffickers and terrorists to flourish and expand their operations on 
the continent. There is a risk that the rule of law in some West 
African states might collapse under the sustained pressure from foreign 
and local DTOs. In addition, many African governments do not have the 
economic capacity or political will to address the drug threat in the 
face of other issues such as famine, disease and poverty.
                               conclusion
    As the lead U.S. Federal drug law enforcement agency, DEA is 
integral to the realization of a successful counternarcotics plan in 
Africa. With decades of overseas experience and an unparalleled global 
law enforcement presence, DEA is well-positioned to forge the 
partnerships necessary to achieve lasting success in Africa. 
Implementing an effective counternarcotics strategy in Africa 
represents a significant challenge to DEA and its partners throughout 
the U.S. Government.
    DEA is enhancing its bilateral intelligence collection and 
operational capacity to address the African drug threat. DEA is also 
working closely with its U.S. Government and foreign law enforcement 
counterparts to counteract the wave of drug-related crime impacting 
many African nations. With the implementation of the proposed 
programs--such as increased training opportunities--DEA and its partner 
agencies can achieve meaningful and sustainable counternarcotics 
success in Africa.
    Mr. Chairman, the DEA is committed to working both harder and 
smarter in dealing with the threat of transnational drug trafficking 
that affects the entire global community. We recognize that interagency 
and multinational cooperation are essential elements of the President's 
National Drug Control Strategy, and these cooperative efforts are the 
best way for us to dismantle and disrupt international DTOs. DEA will 
continue to work tirelessly to enhance the effectiveness of our 
enforcement operations in order to curtail the flow of drugs to the 
United States and around the world. Again, thank you for your 
recognition of this important issue and the opportunity to testify here 
today. I will be happy to answer any questions you may have.

    Senator Feingold. Thank you very much, Mr. Harrigan.
    Mr. Wechsler.

 STATEMENT OF WILLIAM WECHSLER, DEPUTY ASSISTANT SECRETARY OF 
DEFENSE FOR COUNTERNARCOTICS AND GLOBAL THREATS, DEPARTMENT OF 
                    DEFENSE, WASHINGTON, DC

    Mr. Wechsler. Thank you, Chairman Feingold, Senator 
Isakson, Senator Kaufman. Thank you very much for giving me 
this opportunity to testify on this important and emerging 
subject.
    With your permission, I will submit my full testimony for 
the record.
    Senator Feingold. Without objection.
    Mr. Wechsler. Great.
    My office, as you know, has responsibility for overall 
management of Department of Defense counternarcotics programs, 
and provides direct oversight for AFRICOM's counternarcotics 
office.
    Narcotics trafficking in West Africa is not a new 
phenomenon, but the unprecedented growth in trafficking in the 
last few years demonstrates that West Africa is now firmly tied 
into international trafficking patterns and is being 
systematically targeted by international drug trafficking 
organizations, principally from Latin America. This endangers 
peace, stability, democracy, our efforts to promote security-
sector reform in West Africa, and poses an increasing threat to 
both our African and our European partners.
    We need, and are working on, an integrated approach, both 
interagency and international, to equip, train, and maintain 
counternarcotics organizations of regional partners. DOD is 
working with its combatant commands, counternarcotics offices, 
and our interagency partners to jointly attack this problem.
    Cocaine trafficking to West Africa is a recent development, 
as you described and as my colleagues have described. Four 
years ago, only 10 percent of the cocaine destined for the 
European market first transited West Africa; but, by 2007, we 
saw this estimate climb to nearly 60 percent, representing 180 
to 240 metric tons, and 18 percent of the total world cocaine 
production. Despite a decline in trafficking in late 2008, for 
a variety of reasons, we would expect that West Africa will 
continue to be a major transshipment point, going forward.
    The same drug traffickers who ship their drugs to the 
United States have intensified their use of Africa as the 
transshipment point, in reaction to increased interdiction 
efforts against direct shipment to Europe, and to take 
advantage of Africa's porous borders, instability, corruption, 
and lack of dedicated counterdrug forces. Once on the 
continent, the drugs are broken down into smaller quantities 
for further shipment, using a variety of means and routes.
    Regional government capacity to address the problem is 
varied, but, in general, ranges from limited to, unfortunately, 
nonexistent. Certain countries, like Cape Verde, Senegal, 
Ghana, and Sierra Leone, have relatively good capacity and have 
demonstrated political will through participation in maritime 
law enforcement operations with the United States. To build 
more regional capacity, aid for the navies and coast guards 
must be tailored for each country while planning for broader 
desired regional capabilities.
    Ultimately, we want the regional navies and coast guards to 
be able to conduct intelligence-driven interdiction operations 
in collaboration with other partner nations. For this to occur, 
our African partners need assets, such as patrol boats, 
integrated training, and support facilities, along with 
necessary support from the United States and other 
international partners.
    AFRICOM analysts are actively collaborating with their 
counterparts as JIATF-South, DIA, Naval Forces Africa, and 
others, to monitor the drug flow and help guide which projects 
will have the greatest impact. Projects already underway in 
West Africa include construction of boat and refueling 
facilities for the regional navies and coast guards, student 
sponsorship for classroom training, construction of an airline 
passenger screening facility in Ghana, and establishment of an 
Information Fusion Center in Cape Verde.
    All these programs are--it must be stressed--are a result 
of a real interagency development process. And that's critical 
for the success of any of these programs. The Joint Assessment 
Teams, led by State INL and AFRICOM, include individuals from 
DOD, DOJ, and others. They visit individual countries to 
determine the capabilities and weaknesses. The resulting 
assessments generates lists of programs which are designed to 
integrate with and support one another as one whole-of-
government approach from the United States, and also integrate 
with other international efforts that are underway. The members 
of the interagency team are then able to identify which 
proposals fall within the scope of their expertise, and 
collaborate for execution.
    In addition, AFRICOM routinely consults with the 
interagency community via the interagency personnel that are 
embedded with AFRICOM in Stuttgart and ongoing interaction with 
State INL. Through active consultation with the interagency 
community, we seek to only engage in meaningful projects that 
directly support foreign policy and effectively use our tax 
dollars.
    In conclusion, although we are still defining the scope, we 
know that drug trafficking in West Africa is a major problem, 
it's growing rapidly, and we expect it to grow in the coming 
years. The time to correct it is now, before it undermines our 
strategic interests on the African Continent. So, I thank you 
very much for this wake-up call.
    [The prepared statement of Mr. Wechsler follows:]

 Prepared Statement of William Wechsler, Deputy Assistant Secretary of 
 Defense, Office of Counternarcotics and Global Threats, Department of 
                        Justice, Washington, DC

    Chairman Feingold, Senator Isakson, and distinguished members of 
the committee, thank you for the opportunity to testify regarding the 
threat of drug trafficking in West Africa.
    Narcotics trafficking in West Africa is not a new phenomenon, but 
the unprecedented growth in trafficking since 2005 demonstrates that 
West Africa is now firmly tied into international trafficking patterns 
and is being systematically targeted by international drug trafficking 
organizations, principally from South America. While the direct threat 
to the United States is limited, this trafficking problem endangers 
peace, development, stability and democracy in West Africa and poses an 
increasing threat to both our African and European partners.
    In accordance with NSPD 50, the national security goals for Africa 
include building capacity, consolidating democratic transition, 
bolstering fragile states, strengthening regional security and 
providing humanitarian and developmental assistance. The Department of 
Defense strategy for achieving these goals include reducing threats 
that flow from ungoverned areas of weak and fragile states, countering 
humanitarian tragedies that often arise from conflict, ethnic tensions 
and extreme poverty, working with our partners to build capacity and 
reduce threats by promoting reform and professionalism in African 
militaries, and by fostering stability and assisting in reconstruction.
    Together with regional organizations such as the Economic Community 
of West African States and partner countries such as Senegal and Ghana 
we have worked to raise regional peacekeeping capabilities.
    The recent explosive growth in narcotics trafficking in West Africa 
seriously impacts our strategy and goals. We have seen how drug 
traffickers on other continents work to corrupt politicians, 
militaries, and the judicial process. They are using the same tactics 
in Africa. West Africa has made great progress since the horrendous 
civil wars at the turn of this century. The corruption and violence 
associated with the drug trade can rapidly undermine the progress made 
in the region. What we see as vulnerabilities in Africa the traffickers 
see as opportunities. Drug-related corruption and violence will 
undermine overall United States regional strategy and weaken African 
militaries unless the traffickers can be convinced now, while they are 
still establishing their networks, that West Africa and the rest of the 
continent is not open for their business.
    Four years ago, only 10 percent of the cocaine destined for the 
European market first transited West Africa, but by 2007 we saw this 
estimate climb to nearly 60 percent, representing 180 to 240 metric 
tons and 18 percent of the total world cocaine production. In 2008, 
this fell to approximately 40 percent of the cocaine destined for 
Europe, likely due to the instability in Guinea and Guinea-Bissau, two 
of the region's primary entry points. In 2009 this figure is expected 
to climb again, as the drug trafficking organizations adjust their 
operations around the political realities of the region.
    Drug traffickers have intensified their use of Africa as a 
transshipment point as a reaction to increased interdiction efforts 
against direct shipment to Europe and to take advantage of Africa's 
porous borders, instability, corruption, and lack of law enforcement. 
Once on the continent, the drugs are broken down into smaller 
quantities for further shipment using various means and routes. Often, 
traffickers will put as many as 30 couriers on a single commercial 
flight from places like Accra, Ghana, to the European Union, and will 
then give the name of one courier to the authorities on the receiving 
end to focus law enforcement on that individual, allowing the remainder 
to proceed unchecked.
    West African organized crime groups receive large amounts of cash 
or up to one-third of the drug shipment as payment for services. This 
in turn leads to the serious corruption issues with certain West 
African governments and is contributing to a growing drug-use problem. 
The amount of money officials are paid in bribes far exceed what these 
impoverished governments can pay in salaries, and can lead to what is 
called a narcostate, defined as an area that has been taken over and is 
controlled and corrupted by drug cartels and where law enforcement is 
effectively nonexistent. Recent events in Guinea-Bissau leave their 
current status unknown. For example, a U.N. report states that in 2006, 
674 kilograms of cocaine was taken off a plane that landed at a 
military airstrip. Military officers took control of the drugs, which 
subsequently disappeared. The two Colombian suspects that were arrested 
were later released by a judge, with no legal reason given. As 
government capabilities decline due to rampant corruption, licit 
activity becomes more difficult and discourages foreign investment. 
Also, there is a large population of young people in this region. 
Without any real avenues for licit employment or opportunity, they can 
become a humanitarian burden through illegal immigration to Europe or 
America or become vulnerable to extremist ideology and become part of a 
terrorist organization. Finally, left unchecked regional instability 
can deteriorate into armed conflict necessitating expensive Noncombat 
Evacuations of American Citizens or the deployment of peacekeepers to 
the region to stave off widespread humanitarian crisis.
    Regional government capacity to address the problem is varied, but 
in general is weak to nonexistent. Certain countries like Cape Verde, 
Senegal, Sierra Leone, and Ghana have either a limited basic capability 
to conduct independent counternarcotics operations or have demonstrated 
their political will through participation in maritime law enforcement 
operations with the United States.
    DOD's Counternarcotics Strategy, which guides counternarcotics 
operations and assistance at all Combatant Commands, calls for building 
host-nation capacity to conduct counternarcotics operations through 
``enhancement of interdiction forces.'' To build a regional capability, 
aid in terms of training and equipment for the navies and coast guards 
must be tailored to the individual countries while keeping in mind the 
broader regional capacities we seek to build or enhance. For successful 
maritime operations to occur, our international partners need assets to 
patrol against and interdict drug trafficking organizations, including 
land vehicles, patrol boats, and aircraft, along with the requisite 
training and funding stream for maintenance and operations. However, it 
must be noted that basic government, law enforcement, and military 
institutions must be in place before substantial investment in hardware 
will be beneficial, and that the funds available to these governments 
both internally and in terms of foreign assistance are very limited. 
AFRICOM CN efforts recognize this reality and focus on the basic 
capabilities these governments need. The interagency is currently 
working to develop a strategy that balances interdiction and other 
counternarcotics efforts. DOD is collaborating closely with our 
interagency colleagues to ensure the resulting strategy appropriately 
addresses narcotrafficking in the African context, including taking 
into consideration the assistance our European partners are providing.
    AFRICOM CNT analysts are actively collaborating with their 
counterparts at Joint Interagency Task Force South (JIATF-S), our 
European partners' Maritime Analysis and Operations Center (MAOC) based 
in Lisbon, the U.S. Office of Naval Intelligence, Defense Intelligence 
Agency, and others to monitor the drug flow, support the broader 
efforts, build capacity, and help guide which projects will have the 
greatest impact against drug trafficking organizations. AFRICOM CNT 
provides assistance to both military and law enforcement units with 
counternarcotics missions. The maritime projects already underway in 
West Africa include:

  <bullet> AFRICOM CNT sponsorship of students from multiple West 
        African nations on Africa Partnership Station to attend courses 
        taught by U.S. Coast Guard Trainers.
  <bullet> Construction of a pier and refueling facility to extend the 
        range of the Senegalese Navy.
  <bullet> Supported the establishment of Cape Verde Maritime Security 
        Interagency Operations Center, which is an interagency fusion 
        center that will help to develop the regional intelligence 
        picture and communications with U.S. organizations like JIATF-S 
        and the MAOC in Lisbon.
  <bullet> Construction of a climate-controlled facility at the 
        international airport at Accra, Ghana, to screen passengers 
        suspected of swallowing drugs.
  <bullet> Collaborating with Sixth Fleet to construct a boat facility 
        in Ghana to support Defender Class boats that were provided by 
        the United States.
  <bullet> Supporting the training or the future Liberia Coast Guard 
        Commander and Deputy Commander at the International Maritime 
        Officer's Course at the USCG training facility in Yorktown, VA

    Some of the aforementioned programs are the result of direct 
AFRICOM interaction with country teams, but others are the result of an 
interagency development process that will serve as the model for future 
joint efforts. To achieve this, a joint assessment led by INL and 
including individuals from DOD, DOJ, and others is conducted in the 
individual countries to identify current capabilities and weaknesses. 
The resulting assessment generates a list of programs and proposals 
which are designed to integrate with and support each other. The 
members of the interagency team are then able to identify which 
proposals fall with the scope of their expertise and authorities and 
allow them to collaborate with the interagency for execution. In 
addition to the assessment process, AFRICOM routinely consults with the 
interagency community via the interagency personnel embedded with 
AFRICOM in Stuttgart, daily phone calls to State INL, and participation 
in various working groups. Through active consultation with the 
interagency community we seek to only engage in meaningful projects 
that directly support foreign policy.
    In conclusion, we are still discovering the scope of the problem in 
West Africa, and are in the process of building a complete picture and 
comprehensive plan to assist West African countries in becoming capable 
partners against drug trafficking organizations. We look forward to 
continued successful collaboration with the interagency and thank the 
committee for the opportunity to be here today.

    Senator Feingold. Thank you, sir.
    Thank all of you.
    Normally, I would start the questioning, but Senator 
Isakson has to leave for this very important session of another 
committee, so I'm going to ask him to start off. These will be 
7-minute rounds.
    Senator Isakson. Well, thank you very much, Mr. Chairman.
    Secretary Wechsler, on the Somalian coast, given the 
trafficking and the piracy, there has been some international 
cooperation between navies. And that situation appears to at 
least be somewhat better, although certainly not solved. Has 
there been any coordination with European navies regarding some 
presence of patrol on the West African coast?
    Mr. Wechsler. Yes, we are actively cooperating with the 
Europeans in trying to identify how to make use of the 
resources that are available and that might be available. 
Again, this isn't a problem that we can solve on our own; this 
is a problem that, of course, the governments of Africa need to 
play a leading role in solving, and, of course, the governments 
of Europe need to play an important role in solving, because, 
after all, the cocaine that is being shipped is intended for 
European shores. So, indeed, we are, and we will be, working 
with our European partners. It's helpful that AFRICOM, of 
course, is in Stuttgart, which facilitates the coordination 
that's necessary.
    Senator Isakson. Well, I know when I was on the western 
coast, they talked about wanting the U.S. Navy to make ports of 
call on that coast simply because the presence there sends a 
strong message. And if that were true--my thinking being that 
were true--if there was some coordination between the navies of 
the European countries, it might be further evidence of that 
naval presence might be a suppressant.
    You mentioned that once they were at the West Coast of 
Africa, drug traffickers had multiple routes into Europe. Can 
you describe what some of those routes are?
    Mr. Wechsler. Sure. The routes extend from everything from 
individual mules with very small amounts of cocaine that can go 
in great numbers, and so, when individuals are caught, it 
really doesn't hurt the organizations, and they continue to 
traffic through the major air hubs in the region, to overland 
routes. Really, these organizations, of course, as you know, 
Senator, are continuously adapting; they have long experience 
in finding every single route and every partner that might be 
available to do this. The concern is not only, of course, how 
they are doing it now, but how they might do it in the future, 
as demand for cocaine in Europe is expected to grow.
    Senator Isakson. Has there been any evidence or presence of
al-Qaeda or other organized terrorist groups on the West Coast 
of Africa?
    Mr. Wechsler. Well, there is certainly evidence of al-Qaeda 
in the Islamic Maghreb. There's evidence of Hezbollah in the 
area. We do not have--I think it's fair to say--strong 
evidence, at this stage, of either of those organizations 
playing a significantly powerful role in the drug trade, either 
the ones that we're talking about now or other drug trades that 
do exist in the wider region.
    But, I also think it's important to look ahead and to 
recognize the roles that such organizations--the roles that 
drug trafficking have played with such organizations in the 
globe, more widely, and even in the region, more specifically, 
and to imagine ourselves, 5 to 10 years hence, and with a much 
bigger problem on our hands if we don't work together to help 
ameliorate the issue today.
    Senator Isakson. Well, my concern----
    Mr. Harrigan. Sir, if I may----
    Senator Isakson. Yes.
    Mr. Harrigan [continuing]. Follow up----
    Senator Isakson. Certainly.
    Mr. Harrigan [continuing]. As well. The Deputy Secretary is 
absolutely right. Also relative to terrorist organizations, 
let's not forget the FARC. The FARC plays a prominent role in 
West Africa. DEA has several ongoing operations and 
investigations with our counterparts in West Africa and Europe, 
and we'd be happy to brief you, sir, or any of your staff 
members, in a classified setting.
    Senator Isakson. I appreciate that, and I would like to do 
that, because, having been on that coast and in some of those 
countries, corruption is still a major problem in government in 
Africa, (a), and (b) that is the operative opportunity for al-
Qaeda, the FARC, and others to actually infiltrate the 
governments, for their own protection, to traffic in and out. 
So, that is why I asked the question. I would really enjoy very 
much having that briefing, so let's make that happen.
    Mr. Harrigan. Absolutely.
    Senator Isakson. Secretary Carson, on another note--it has 
nothing to do with drug trafficking in West Africa--but I want 
to thank you for your commitment to the Comprehensive Peace 
Agreement. And I know you will probably be going back today to 
the Park Hyatt on those negotiations, and I wish you well and 
thank you for that time you're spending on it.
    Ambassador Carson. Thank you very much, Senator. I was 
there this morning from 8 o'clock, rushed here to participate 
in this hearing, and will go back to those meetings and 
proceedings after this hearing. We appreciate your strong 
support in this effort, as well as Chairman Feingold's efforts.
    Senator Isakson. Thank you, sir.
    Senator Feingold. Thank you, Senator Isakson.
    Assistant Secretary Carson, let me start with you. It seems 
to me that one of the greatest challenges that we face in this 
issue of countering drug trafficking in West Africa is the lack 
of an adequate diplomatic presence and inadequate information 
on the problem. Do you agree with the assessment? And are there 
specific countries or areas in West Africa where you think we 
urgently need to expand our diplomatic presence to address this 
problem?
    Ambassador Carson. Mr. Chairman, thank you for the 
question. The answer is, absolutely yes, we need expanded 
diplomatic presence throughout West Africa, but in particular 
in Guinea-Bissau. Guinea-Bissau has been identified as Africa's 
first narcotics trafficking state. It is a country that has 
experienced enormous instability. Some of that instability has 
been caused by the influence of drug traffickers operating 
there. Both the President and the chief of the army were 
recently killed, in large measure, we believe, because of 
relations they had with financing and drug dealing. We have no 
embassy there. We have not had an embassy there in nearly a 
decade. We need one there. We need a strong diplomatic presence 
there, not only to represent our interests, but also to help 
counter and monitor developments in the area of drug 
trafficking.
    We also need expanded presence in some of the Sahel 
countries, where we only have one or two political and economic 
officers. We could reasonably see expansions in places like 
Senegal, like Mali, like Burkina Faso, and Benin and Togo. All 
of those places could stand additional resources.
    Senator Feingold. And as a former national intelligence 
officer, how would you assess the adequacy of the information 
we have on this threat?
    Ambassador Carson. We could use additional information to 
help to track down individuals who are associated with 
international narcotics trafficking. The absence of political 
officers who can dedicate more time to this, as well as the 
absence of intelligence officials who can dedicate more time to 
this, hampers our ability to zero in on individuals who are 
engaged in these networks. The more intelligence, more 
information, would be enormously helpful.
    Senator Feingold. And in coordination with the Africa 
Bureau, what specific activity, Mr. Carson, is the State 
Department's INL Bureau currently undertaking to help West 
African countries both build their law enforcement and judicial 
capacity to respond to this problem? And do they have 
sufficient resources for it?
    Ambassador Carson. We could use additional resources. The 
State Department's INL program focuses largely on building 
capacity. We think that there is a need for governments in 
Africa to have stronger judiciaries, stronger prosecutorial 
authorities, better judges, better investigators, and better 
police officers capable of investigating crimes, lawyers 
capable of prosecuting, judges willing to convict, and jails 
able to keep convicted individuals involved in drug 
trafficking.
    We're working in a number of states in Africa to strengthen 
that African capacity, for example, in Ghana, Sierra Leone, and 
Liberia. We have programs that are designed to strengthen 
capacity, and programs that are designed to work effectively 
with those of DEA and DOD.
    The State Department could always use additional resources. 
This fiscal year, State Department received approximately $2.17 
million for counternarcotics efforts. The Defense Department, 
my colleagues over there, received $11 million in funding for 
counternarcotics efforts. I think that is a slight imbalance, 
given what
we have to do on the ground. I'm not asking to rob from DOD,
but I do think that we could use additional resources, given 
our responsibilities in this area and the need to have programs 
that strengthen local capacity, political will to investigate, 
prosecute, and indict.
    Senator Feingold. Thank you.
    Special Agent Harrigan, on DEA's efforts to partner with 
its law enforcement counterparts in West Africa, what do you 
find to be the greatest challenges? And, in this regard, how do 
you coordinate with State's INL Bureau? And how much is 
corruption of law enforcement agencies, particularly drug-
related corruption, an active and present threat?
    Mr. Harrigan. Well, it's--thank you for the question, 
Chairman, it is a huge issue for DEA and our counterparts--
drug-related corruption and other related crimes involved with 
that--sort of that corruption infrastructure, if you will. We 
work very closely with our law enforcement counterparts in West 
Africa, in the countries where DEA has offices. We are looking 
to stand up a vetted unit in Ghana, which would be the first on 
a continent of Africa. And basically what that does, sir, those 
officers in a vetted unit would be handpicked by DEA personnel, 
in consultation with authorities from Ghana, and they will be 
trained, they will be vetted, they will be polygraphed, they 
will be drug tested and undergo extensive training down at the 
DEA Academy here in Virginia, actually in Quantico, VA. Does it 
eliminate corruption? No. But, it certainly minimizes it when 
we could with these vetted units. Again, we look to stand up 
the first vetted unit within the next 6 to 9 months in Ghana 
and hopefully in the other countries that we are located and 
eventually will expand to; we'll have similar vetted units, as 
we do all around the world.
    Senator Feingold. Mr. Wechsler, as you mentioned, AFRICOM 
is actively involved in efforts to strengthen maritime security 
off West Africa's coast. How much of these efforts are 
specifically targeting drug trafficking? And is AFRICOM 
currently involved in any interdiction activities?
    Mr. Wechsler. Well, a couple of answers to that, Senator, 
first and foremost, this work is being done, to a great degree, 
through the counternarcotics office in AFRICOM, and that's 
where a great deal of the immediate threat and the potential 
for a growing threat is coming. And so, that's where a lot of 
the focus is.
    Now, of course, wider issues, to understand and get a full 
grasp of maritime domain awareness, have wider advantages, as 
well, for other threats that might affect the region and for 
the region's continuing development. So, we see this as having 
mutual beneficial impacts on the region and on the work of 
AFRICOM.
    AFRICOM is working with JIATF-South. One of the things that 
is not as--I don't think, as well understood out there is 
JIATF-South, which has built up a tremendous expertise at 
working through interdiction issues on an interagency basis 
with SOUTHCOM, also has agreements with EUCOM and with AFRICOM 
to bring that expertise to bear.
    Senator Feingold. Thank you very much.
    Senator Kaufman.
    Senator Kaufman. Secretary Carson, I'm looking for some 
optimism in this picture. Having traveled in this area of the--
Africa, corruption is already an incredibly difficult problem. 
It just sounds to me like--first, I--by the way, first I want 
to thank the chairman for holding this hearing. I mean, I want 
to tell you, this is, as you said, a wake-up call--for this 
Senator, it's a wake-up call, in terms of what could really be 
a very--a bad situation getting very--a lot worse.
    And so, I mean you look at these countries, where there's, 
kind of, corruption in a number of the countries, they aren't 
strong central governments. You talked about the kinds of 
things that we have to do, in terms of the rule of law and 
getting folks involved and the amount of poverty in these 
areas. I mean, aren't we kind of faced with a rush to the 
bottom, where we kind of help--work with some countries--
Guinea-Bissau--the present problem, but then the drug lords 
just move to another country and use their money to corrupt 
whatever government that they're working on? Can you just give 
me some hope that there is an answer to this?
    Ambassador Carson. Senator, thank you for the question.
    It's a difficult issue, but I think it is not hopeless, and 
we are certainly not helpless in the process. I think that by a 
strategic-coordinated approach, using all the elements of the 
U.S. Government, we can, in fact, begin to make a difference.
    I think the work that we do collaboratively here as a U.S. 
Government can make a difference. As I say, the State 
Department's focus is on coordination, but by building local 
capacity and dealing with the issues of inadequacies in the 
judicial system and in the police forces, and working with 
governments to recognize the nature of the problem can work. I 
think that the efforts that DEA brings to the investigative and 
prosecutorial aspect of this are important, and I think 
AFRICOM's efforts, in terms of helping in interdiction, all 
constitute a part of a whole which is a part of a strategic-
level engagement.
    We do have success when we are engaged and we focus on it. 
I would point to Nigeria as a place where there were enormous, 
enormous problems with drug trafficking, a decade ago. They 
have not entirely disappeared, but we have, in effect, been 
able, by working effectively with the Nigerian Government and 
sensitizing them to the political dangers that are inherent in 
allowing drug trafficking to pass through their country--how it 
undermines their political system; how it undermines their 
police and customs authorities. Through a lot of collaborative 
effort, they have worked with us to identify individuals 
engaged in international trafficking, have prosecuted an 
increasing number of individuals involved in drug trafficking, 
and have systematically worked to try to improve their ability 
to catch people who are mules and smugglers going to the United 
States and Europe.
    It is not as much of an improvement as we would like, and 
it's not perfect, but it is substantially better than it was a 
decade ago, and it does demonstrate that, if we, in fact, focus 
on this and apply our collective abilities, we can make a 
difference.
    There's no question that both corruption and poverty play a 
role in allowing narcotics traffickers to insinuate themselves 
into a country. Guinea-Bissau is a classic case. It has 
virtually no economy. It depends on a single-item export, and 
that's cashew nuts. And there is absolutely no doubt that 
cocaine and two or three large shipments of cocaine through 
Guinea-Bissau have an enormous ability to corrupt a society and 
its political elite and its customs officials, as well.
    Senator Kaufman. And I don't mean--I think what you've laid 
out here this morning is a coordinated plan using the resources 
available to you from the Federal Government, and it seems to 
make a lot of sense to me. I'm just trying to deal with the 
idea that, you know, Nigeria's one kind of--Nigeria has a lot 
of interests, it's a big country, they have international 
responsibilities, they have oil, they have all these things. 
I'm just looking at some of the other players in that area--
smaller countries with not much natural resources, that these 
drug traffickers are just going to move from country to country 
if we--and I'm not--I hope this isn't the case; I'm just--with 
the best-laid plans, if you don't have the government involved, 
all the things that you talked about are just not going to--it 
doesn't seem to me, are going to work. So, as they move from 
country to country, is there some bigger thing we have to do, 
or is there--give me some hope, like you did on Nigeria, that--
--
    Ambassador Carson. Well, I think there is hope. I think, 
less than 3 months ago, the Sierra Leonean Government took the 
courageous step of identifying and arresting several known 
Latin American drug dealers, and they were turned over to 
United States authorities in Freetown, and moved from there 
back to the United States, where they are currently in jail and 
awaiting prosecution. We are working with various governments, 
informing them how dangerous this can be for the long-term 
stability of their country.
    And we do get cooperation. We received cooperation in 
Sierra Leone, in Liberia, and in Ghana, where, as our colleague 
has just said, that the Ghanaians have clearly agreed to the 
vetting of a special police unit. The Attorney General for 
Ghana was here in the United States less than 2 weeks ago. He 
made two visits. One was to the Department of Justice to deal 
with a contentious commercial legal issue. The other was to 
DEA, to talk with her counterparts about strengthening the 
collaboration between Ghana and the United States on drug 
trafficking.
    One of the things that we have tried to do on the 
diplomatic side is to sensitize African leadership, at the 
political level, at the police level and the judiciary, about 
how insidious and cancerous drug trafficking can be. I think 
that the rapid increase in trafficking in Africa surprised some 
of Africa's governments; they had not regarded this as a 
priority.
    One of the things that we've tried to do is to encourage 
them to prioritize this issue.
    Senator Kaufman. Can I ask the--Mr. Chairman--any other 
comments?
    Mr. Wechsler. Yes, I think it's an excellent question, 
Senator, and I think we have to avoid both the dual temptations 
of cynically understating the important work that's being done 
by certain parties in Africa who are dedicated to fighting the 
scourge of narcotics, and, at the same time, avoiding, also 
naively understating the threat and the challenge that is 
presented to them and to other parts of Africa that aren't as 
dedicated to the fight against narcotics. This problem is that 
it's a long-term problem, it requires a long-term solution, 
where there's one thing that you can guarantee, is that there's 
going to be failures along the way. But, with that kind of 
long-term solution, we can try to address this problem with the 
recognition that it's likely to get worse before it gets 
better. Demand in Europe is going to go up. The narcotics 
traffickers look at Europe and they look at the United States, 
and they see, in Europe, that profits are higher, they see that 
the downside risk is far less, and they see that the future 
growth is much, much higher, that means that's where you should 
be focusing, and those are the countries in Africa which find 
themselves along the way.
    Mr. Harrigan. If I may, Senator, also, maybe a sliver of 
sunshine.
    Senator Kaufman. Good.
    Mr. Harrigan. But, let me be very clear and candid. We have 
an outstanding working relationship, DEA does, with our law 
enforcement counterparts. Without question, as we've seen in 
South America and Mexico, our law enforcement counterparts put 
their lives on the line each and every day to battle these 
cartels, whether it's the FARC, whether it's potentially 
Hezbollah or some other narcoterrorist group.
    But, as Secretary Carson said, I met, personally, 2 weeks 
ago, with the Attorney General from Ghana. She is extremely 
dedicated, intelligent, committed, and, in my opinion, honest, 
the most important thing. And she is willing. She has just 
recently, as I mentioned in my opening statement, sir, where 
she approved the expulsion of a very significant trafficker. 
There have been several. We've had excellent working 
relationships in Togo and Ghana and in Sierra Leone. And I 
think what is very important for the African nations, the 
countries, to understand, much as we've seen in Mexico and 
Central America, years ago, where they say, ``Well, it's just 
transiting Mexico or Central America; it's going to the United 
States.'' You know what? Transit countries become user 
countries overnight. There's no question about it. And they 
must be prepared. And that's what--DEA's standing tall with our 
partners there to try to deliver that message.
    Senator Kaufman. And I think that's great, and I really 
want to encourage what you're doing.
    And again, I want to thank the chairman for doing that.
    I'd just say one thing. If you were picking the countries 
that I thought we'd get cooperation from, Ghana and Nigeria 
would be at the top of the list. There are some other countries 
that are--I think could well go--exactly what you said, become 
transit points--looks like a good idea, deals with their own 
personal needs of the leaders there. So, I'm just supporting 
what it is you're doing. I'm just concerned about--just trying 
to raise the level of how difficult this problem is, again, and 
thanking the chairman for holding this hearing.
    Senator Feingold. Thank you, Senator Kaufman, for your 
participation and your strong interest in this.
    And I want to thank the panel for your testimony and for 
your efforts in this area. And I want to urge you on with 
coordination. That is obviously critical to this.
    So, thank you very much.
    And we'll ask the next panel to come forward now.
    [Pause.]
    Senator Feingold. Thank you very much, and we'll begin the 
panel.
    Again, please limit your remarks to 5 minutes. We'll put 
your full statement in the record.
    Mr. Farah.

   STATEMENT OF DOUGLAS FARAH, SENIOR FELLOW, INTERNATIONAL 
        ASSESSMENT AND STRATEGY CENTER, TAKOMA PARK, MD

    Mr. Farah. Thank you, Senator Feingold, for the opportunity 
to be here.
    Some of what I was going to say was covered by the earlier 
panelists, so I will skip some of that.
    I want to thank you, particularly, for the Victor Bout case 
and your help in bringing him to justice, we hope, at least to 
get him as far as the Thai prison for the last 14 months, where 
he's lost about 40 pounds, so it's not all bad. [Laughter.]
    The movement of drugs, particularly cocaine, through West 
Africa is a product of several developments in the overall drug 
trade. And the consequences are already devastating, as we've 
talked about here. You've talked about the U.N. estimates of 
the amount of drugs flowing through, the $1.8 billion. If you 
look at what drug--what ``blood diamonds'' provided Charles 
Taylor at the height of the blood diamond trade, it was $200 
million. So, the order of magnitude between what drug 
trafficking will bring in to the criminal/terrorist pipelines 
in West Africa and what we've already seen in the devastation 
that even $200 million can bring, you can understand the level 
of concern for what's going to be happening there in the near 
future.
    The ability of terrorists and criminal organizations to 
exploit weak and criminal states, and their existence in West 
Africa, as well as several other macrotrends in drug 
trafficking, explain why West Africa has become so important, 
in my mind.
    One of the primary developments is--as mentioned--is the 
consumption in Europe. But, a second development, which we 
haven't focused on as much, is the ability to move cocaine from 
Colombia production sites, particularly those controlled by the 
FARC, through Venezuela with impunity. The government of Hugo 
Chavez in Venezuela has allowed the FARC to establish roots 
through his country that greatly lessen the threat and the cost 
of their moving cocaine, and Venezuela's geographic proximity 
to West Africa also make it an ideal launching pad.
    A third factor is the success in the Colombia governments 
in dismantling the large cartels, leaving the field open to 
smaller groups that seek alternative routes to their markets. 
General Oscar Naranjo, the commander of the Colombian National 
Police, recently stated that Colombia, due to the weakness and 
absence of the traditional drug trafficking groups, no longer 
produces 90 percent of the world's cocaine, but rather, about 
54 percent of the cocaine hydrochloride, with the rest coming 
from Peru and Bolivia. He noted that, for the first time in two 
decades or more, there's no single drug trafficking 
organization that dominates, like the Medellin Cartel, the Cali 
Cartel, the Northern Valley, the FARC, and the AUC.
    At the same time, as was mentioned earlier, the Mexican 
cartels are under increasing pressure inside Mexico, and United 
States interdiction efforts have raised the cost of doing 
business for them in the United States. This pressure has made 
diversification to the European market via West Africa 
increasingly attractive.
    All of this has direct consequences for West Africa. What I 
have observed repeatedly in two decades of following drug 
trafficking, transnational criminal organizations, and nonstate 
armed groups is that they are able to meet--when they are able 
to meet in neutral territory, they often form alliances that 
would not be possible in--under other circumstances. This is 
holding true in West Africa.
    Already, in Guinea-Bissau, Guinea-Conakry, Ghana, Sierra 
Leone, and elsewhere, we're seeing members of Mexican, 
Colombian, Venezuelan, Surinamese, and European organizations 
operating in the same territory and plugging into the same 
criminal pipelines. Identified members of the FARC, as well as 
Colombian--other Colombian organizations are on the ground in 
West Africa, protecting shipments and making deals.
    There is a broader potential danger that must be kept in 
mind as we assess the emerging trends to West Africa. Some--and 
I'm--I think Mr. Braun will talk about this in more detail--we 
talk about the hybrid criminal-terrorist organizations, of 
which I think the FARC is a primary and leading example. In 
West Africa, it is Hezbollah, the Lebanese-based Shia Islamist 
organization that has long maintained an operational presence 
on the ground, and it has played a significant role in ``blood 
diamonds'' and other trafficking activities there.
    In addition, many of the Lebanese diaspora community in 
West Africa, numbering several hundred thousand, pay a portion 
of their earnings to support Hezbollah in Lebanon, with the 
knowledge and acquiescence of their host governments.
    I think it's inevitable that these groups, operating in the 
same permissive environments, will eventually come to know each 
other and come to work together, because each has what the 
other one needs. The Lebanese and Hezbollah groups control the 
pipelines and movement to Europe, and the cocaine traffickers 
provide a high-value commodity to put into that: Cocaine.
    I think it's worth keeping in mind that Hezbollah has long 
been active in Latin America. The most egregious case is the--
that we've documented, of course--is the Hezbollah and Iran's 
direct involvement in the 1994 AMIA bombings in Buenos Aires.
    What's more worrisome is the recent evidence of Hugo 
Chavez's direct support for Hezbollah in Venezuela, including 
the June 18, 2008, OFAC designations of two Venezuelan 
diplomats--very senior diplomats--in his organization, in his 
party.
    Given Iran's ties to Hezbollah in Venezuela, Venezuela's 
ties to Iran in the FARC, and the FARC's history of building 
alliances with other armed groups in the presence of Hezbollah 
and other armed Islamic groups on the ground, both in Latin 
America and West Africa, I think it would be dangerous and 
imprudent to dismiss the possibility of an alliance of these 
actors.
    The histories of these groups indicates they will take 
advantage of ungoverned spaces in corrupt and weak states in 
West Africa to get to know each other, work together, learn 
from each other, and exploit areas of mutual interest. 
Unfortunately, the primary area of mutual interest is a hatred 
of the United States.
    Given that most of the cocaine passing through West Africa 
is destined to Europe, why should we care? I think the first 
answer is that the West Africa cocaine trail directly 
strengthens the drug cartels in our hemisphere. We see the 
problems that Mexico's having--Colombia, Bolivia, Peru--the 
illicit organizations in all those states will be greatly 
strengthened.
    It will also--it also strengthens the groups that are 
seeking to strangle the liberal democracies of Latin America, 
as we see in Bolivia, Ecuador, Nicaragua, and elsewhere. The 
enemies of these liberal democracies, I would say, are Hugo 
Chavez, Iran, the FARC, and Hezbollah.
    A second reason, of course, is that we depend on the region 
for about 18 percent of our oil, 14 percent of our liquid 
natural gas. And we are going to see increased instability in 
the region, I think, inevitably, as this goes forward.
    The third reason--and I--then I witness the destruction on 
the ground--is the human suffering that this will inevitably 
bring. The order of magnitude, as I said, of the drug 
trafficking will far outstrip the other commodities that have 
already caused great human damage, from the systematic mass 
amputations and rape of the RUF to the brutality of the Taylor 
regime to the millions of displaced refugees.
    As the previous panel said, the United States is taking 
effective--some steps to deal with this, but I think more needs 
to be done, primarily on the information-sharing. We still see 
stovepiping within our own--within our own government. The 
Europeans, particularly the French, British, and Belgians, must 
be brought into the process in a much more robust way. This is 
true, not only because the cocaine ends up in Europe, but 
because these countries have long histories and knowledge of 
the drug trafficking organizations, the other criminal 
organizations that already exist in Latin America--or, in West 
Africa.
    I'm not optimistic about the possibility of avoiding a 
wholesale disaster in West Africa that will have direct 
spillover effects in Latin America and the United States. Al-
Qaeda, Hezbollah, Hamas, and other terrorist organizations have 
an operational presence across sub-Saharan Africa. They are 
increasingly using the same pipelines and facilitators as 
transnational criminal groups. And these pipelines will grow 
and spread with the infusion of cocaine drug money, 
accelerating the corrosion of already weak states.
    Thank you.
    [The prepared statement of Mr. Farah follows:]

   Prepared Statement of Douglas Farah, Senior Fellow, International 
            Assessment and Strategy Center, Takoma Park, MD

    Thank you for the opportunity to testify today on an issue that I 
believe is one of the most pressing we face in terms of the security 
and stability of the African subcontinent, Latin America and, 
ultimately, the United States.
    The movement of drugs, particularly cocaine, through West Africa is 
the product of several developments in the overall drug trade, and the 
consequences are already devastating, as shown by the new wave of 
political instability and the creation of the continent's first true 
``narcostates.'' As the trafficking grows, so will the havoc wreaked on 
weak states in West Africa--many of which are only now emerging from 
decades of chaos and unspeakable violence and are ill prepared to face 
the new challenges.
    The United Nations Office of Drugs and Crime (UNODC) conservatively 
estimates that 40 to 50 tons of cocaine, with an estimated value of 
$1.8 billion, passed through West Africa in 2007, and the amount is 
growing.\1\ The Pentagon's Africa Command and other intelligence 
services estimate the amount of cocaine transiting West Africa is at 
least five times the UNOCO estimate.\2\ But even using the most 
conservative estimate, the magnitude of the problem for the region is 
easy to see. Using UNODC figures, the only legal export from the region 
that would surpass the value of cocaine is cocoa exports from Cote 
d'Ivoire. If the higher numbers are used, cocaine would dwarf the legal 
exports of the region combined, and be worth more than the GDP of 
several of the region's nations.\3\
---------------------------------------------------------------------------
    \1\ Presentation of Antonio L. Mazzitelli, regional representative, 
United Nations Office of Drugs and Crime, Regional Office for West and 
Central Africa, at the Woodrow Wilson International Center for 
Scholars, May 28, 2009.
    \2\ Presentation of Peter D. Burgess, Counter Narcotics Project 
Officer, U.S. Africom, at the Woodrow Wilson International Center for 
Scholars, May 28, 2009.
    \3\ Extrapolated by the author from UNODC and Africom data.
---------------------------------------------------------------------------
    As Antonio Maria Costa, the head of the United Nations Office on 
Drugs and Crime wrote recently in a recent op-ed in the Washington 
Post, this epidemic of drugs and drug money flooding Guinea-Bissau, 
Guinea, Sierra Leone and elsewhere has become a security issue. ``Drug 
money is perverting the weak economies of the region . . . The 
influence that this buys is rotting fragile states; traffickers are 
buying favors and protection from candidates in elections.'' \4\
---------------------------------------------------------------------------
    \4\ Antonio Maria Costa, ``Cocaine Finds Africa,'' The Washington 
Post, July 29, 2008, p. A17, viewed at: http://www.washingtonpost.com/
wp-dyn/content/article/2008/07/28/AR200807280
2466.html.
---------------------------------------------------------------------------
    This staggering influx of illicit new revenue into the region is 
taking place in a broader and unhealthy context.
    The changes across the globe have been swift and dramatic in recent 
years, as demonstrated in a snapshot drawn from three World Bank 
studies \5\ and a recent survey by Foreign Policy Magazine and the 
Carnegie Endowment for International Peace.\6\ Both sets of studies use 
metrics of economic development, state legitimacy, human rights, 
demographic pressures, public services and citizen security to 
determine where countries rank on a global scale.
---------------------------------------------------------------------------
    \5\ ``Engaging with Fragile States: An IEG Review of World Bank 
Support to Low-Income Countries Under Stress,'' The World Bank, 
September 2006, Washington, DC, accessed at http://www.worldbank.org/
ieg.
    \6\ ``The Failed State Index 2007,'' Foreign Policy Magazine, July-
August 2007, pp. 54-63.
---------------------------------------------------------------------------
    Those nations at the bottom have become know as ``failed states'' 
or ``fragile states,'' terms that have come into vogue to describe the 
growing areas of the world that lie beyond the control of central 
governments. In 1996 only 11 states were judged to be failing across 
the world. By 2003, a scant 7 years later, the number had grown to 17 
and by 2006 the number was 26. More than half of those, 18, are in sub-
Saharan Africa.
    This trend is important because these growing areas that are either 
stateless or governed by states that are in practice are functioning 
criminal enterprises give rise to new hybrid organizations which make 
the traditional distinction between terrorism and organized crime, 
particularly drug trafficking, meaningless. I believe we will see the 
emergence of these hybrid organizations in West Africa in the very near 
future and indeed they may already exist.
    What draws terrorist and criminal organizations together, as overt 
state sponsorship for terrorism has been curtailed, are the shadow 
facilitators who understand how to exploit the seams in the 
international legal and economic structure, and who work with both 
terrorist and criminal organizations. Both groups use the same 
pipelines, the same illicit structures, and exploit the same state 
weaknesses, and are increasingly overlapping. Of the 43 Foreign 
Terrorist Organizations listed by the State Department, the Drug 
Enforcement Administration says 19 have clearly established ties to 
drug trafficking and many more are suspected of having such ties.\7\
---------------------------------------------------------------------------
    \7\ DEA Chief of Operations Michael Braun at a July 18, 2008, 
speech to the Washington Institute for Near East Policy, accessible at: 
http://www.washingtoninstitute.org/template
C07.php?CID=411.
---------------------------------------------------------------------------
    One of the reasons for this is the dismal state of governance in 
West Africa is that since the early 1990s the region has suffered a 
series of conflicts centered on natural resources, particularly 
diamonds, timber, oil, and gold. Profits from these ``honey pot'' wars 
fueled the rise of the Revolutionary United Front (RUF) in Sierra Leone 
with its child soldiers and unspeakable atrocities; fed the wars 
sustained by Liberia's Charles Taylor; and contributed to the rampant 
corruption and weak or failed institutions in almost every country. 
These natural resources, while valuable, pale in comparison to the 
money the cocaine trade generates. For example, at the height of the 
``blood diamond'' trade in Sierra Leone and Liberia, the total value of 
the diamonds being smuggled out was less than $200 million. The 
potential to fuel conflicts over the cocaine pipeline, the most 
lucrative commodity so far and one whose profits are several orders of 
magnitude larger than diamonds, is truly frightening.
    Terrorist and criminal organizations are masters at exploiting weak 
or criminal states,\8\ and the existence of these regions in West 
Africa, as well as other macrotrends in cocaine trafficking, explain 
the emergence of West Africa as an important transit area in recent 
years.
---------------------------------------------------------------------------
    \8\ For a more detailed look at the criminal/terrorist pipelines 
and the different functions of failed and criminal states in their 
exploitation, see: Douglas Farah, ``The Criminal-Terrorist Nexus and 
Its Pipelines,'' The NEFA Foundation, January 14, 2008.
---------------------------------------------------------------------------
    One of the primary developments is the growth of cocaine 
consumption in Europe, the former Soviet Union and other new and 
emerging markets.\9\ Drug traffickers, like all good entrepreneurs, are 
constantly looking to diversify their markets and move to markets that 
provide greater profitability. While U.S. demand for cocaine has 
remained steady or declined in recent years, consumption in other parts 
of the world is growing rapidly. According to the State Department, 
Brazil is now the second largest consuming market for cocaine, after 
the United States.\10\ Moving drugs through Africa to Europe, while a 
circuitous route, is lucrative enough to draw many illicit 
organizations' involvement.
---------------------------------------------------------------------------
    \9\ According to recent data provided by U.S. agencies, the 
wholesale value of a kilo of cocaine in the United States is about 
$30,000, while the value in Europe is $47,000.
    \10\ 2009 International Narcotics Control Strategy Report (INCSR), 
Country Report: Brazil, United States Department of State, February 27, 
2009.
---------------------------------------------------------------------------
    A second development is the growing ability to move cocaine from 
the Colombian production sites, largely controlled by the self-declared 
Marxist Revolutionary Armed Forces of Colombia (Fuerzas Armadas 
Revolucionarias de Colombia-FARC) or other nonstate armed groups, 
through Venezuela with impunity. The government of Hugo Chavez in 
Venezuela has allowed the FARC, with whom Chavez has a deep and 
personal relationship,\11\ to establish routes through his country that 
greatly lessen the threat and the cost of moving cocaine.
---------------------------------------------------------------------------
    \11\ The relationship is meticulously documented by the FARC 
leadership. The documents were captured from the computer of Raul 
Reyes, the FARC's second in command, on March 1, 2008, when Colombian 
troops raided Reyes' headquarters established on Ecuadoran soil. For 
more details, see: Douglas Farah, ``What the FARC Papers Show Us About 
Latin American Terrorism,'' The NEFA Foundation, April 1, 2008, 
accessible at: http://www.nefafoundation.org/miscellaneous/
FeaturedDocs/nefafarc0408.pdf.
---------------------------------------------------------------------------
    The closeness of the Venezuelan Government to the FARC was 
demonstrated in September 2008, when the Treasury Department's Office 
of Foreign Assets Control sanctioned three of Chavez's closest 
associates, including two intelligence chiefs, for aiding the FARC in 
the purchase of weapons and drug trafficking.\12\ It should be noted 
that the FARC has a well-established network, including financial 
handlers, already established in Europe, particularly in Spain, where a 
good portion of the cocaine enters the European Union.\13\
---------------------------------------------------------------------------
    \12\ The three are Hugo Armando Cavajal, director of military 
intelligence, described as providing weapons to the FARC; Henry de 
Jesus Rangel, director of the civilian Directorate of Intelligence and 
Prevention Services, described as protecting FARC drug shipments; and 
Ramon Emilio Rodriguez Chacin, who, until a few days before the 
designation was Venezuela's Minister of Interior and Justice. He is 
described as the ``Venezuelan Government's main weapons contact for the 
FARC.'' The role of the three in closely collaborating with the FARC is 
described in some detail in the documents captured in the Reyes 
documents. See: ``Treasury Targets Venezuelan Government Officials 
Supporting the FARC,'' Press Room, Department of Treasury, September 
12, 2008, viewed at: http://www.treas.gov/press/releases/hp1132.htm.
    \13\ For details of the FARC European network, see: Douglas Farah, 
``The FARC's International Relations: A Network of Deception,'' The 
NEFA Foundation, September 22, 2008, accessed at: http://
www.nefafoundation.org/miscellaneous/FeaturedDocs/
nefafarcirnetworkdeception0908.pdf.
---------------------------------------------------------------------------
    It is interesting to note that several of the largest cocaine busts 
in West Africa have come aboard aircraft that departed from 
Venezuela.\14\ Since Chavez expelled the Drug Enforcement 
Administration from Venezuela in 2006 and has halted all 
counternarcotics cooperation, U.S. officials describe Venezuela as a 
``black hole.'' Not only does the Venezuelan Government's attitude 
encourage drug trafficking, but Venezuela's geographic proximity to 
West Africa make it an ideal launching pad. This is true for both 
maritime operations and the use of aircraft.
---------------------------------------------------------------------------
    \14\ Among the largest was the May 1, 2007, seizure of 630 
kilograms of cocaine aboard a Cessna aircraft in Nouhabidou, 
Mauritania. The airplane's GPS showed it had taken off from Venezuelan 
territory. See: ``Cocaine Trafficking in Western Africa: Situation 
Report,'' UNODC, October 2007, pg. 9. In July 2008 another aircraft 
with 600 kilograms of cocaine and using a false Red Cross emblem on its 
tail, was seized in Sierra Leone.
---------------------------------------------------------------------------
    A third factor is the success of the Colombian Government in 
dismantling the large cartels, leaving the field open to smaller groups 
that seek alternative routes and markets. This is particularly true of 
resurgent drug trafficking organizations in Bolivia and Peru. While the 
Colombian organizations were for years able to keep the Bolivian and 
Peruvian structures from participating in any significant manner in the 
production of cocaine hydrochloride (HCL), or refined cocaine, those 
restrictions have eased as the Colombian organizations have weakened.
    General Oscar Naranjo, commander of the Colombian national police, 
recently stated that Colombia, due to the weakness of the traditional 
groups, no longer produces 90 percent of the world's cocaine, as has 
been the case for most of the past two decades. Rather, he said, 
Colombia produces about 54 percent of the HCL on the world market 
``with the rest coming from Peru and Bolivia.'' \15\ He noted that for 
the first time in two decades or more, there was no single drug 
trafficking organization that dominates, as the Medellin, Cali, 
Northern Valley, FARC, and the right wing United Self Defense Forces of 
Colombia (Autodefensas Unidas de Colombia-AUC) structures were able to. 
Rather, the landscape is now divided among many smaller groups, called 
``Grupos Emergentes'' or Emerging Groups, such as the Aguilas Negras. 
These groups, in turn, are often made up of remnants of the former 
cartels, even ones that were mortal enemies at one time, such as the 
FARC and the AUC.
---------------------------------------------------------------------------
    \15\ ``Colombia: Amid Signs of Progress, Warning of a Cartel War,'' 
Latin American Security & Strategic Review, January 2009.
---------------------------------------------------------------------------
    At the same time Mexican cartels are under increasing pressure 
inside Mexico, and United States interdiction efforts have raised the 
cost of doing business in the United States. This pressure has made a 
diversification to the European market, via West Africa, increasingly 
attractive.
    This has direct consequences for West Africa. There is a consensus 
among United States, United Nations, and European monitors that the 
volume of cocaine flowing through West Africa is accelerating, and that 
the dramatic rise will not end any time soon, for a variety of reasons. 
Among those reasons are the rapid shifts and increasing fluidity within 
the overall world drug trade.
    A significant portion of the Bolivian (and to a lesser degree 
Peruvian) cocaine shipments move by air to Venezuela, in part because 
of the alliance and friendship between Bolivian President Evo Morales 
and Chavez that makes the transportation relatively easy and safe. The 
cocaine is then often shipped onward to Europe, via Africa. But the 
majority of the Bolivian and Peruvian product is moved through Brazil, 
a nation with growing consumption, and then onward to Africa. There are 
linguistic as well as geographic reasons for this. Angola and Guinea-
Bissau, two of the most active transshipment hubs, are former 
Portuguese colonies, and the official languages there is Portuguese, 
making communication easier for Brazilian traffickers.
    This trend is creating the conditions for the convergence of these 
groups in new and dangerous ways, affording them not only the 
opportunity to reap enormous profits, but the chance to share ``lessons 
learned,'' best practices and the latest technology in areas that are 
largely beyond state control.
    What I have observed repeatedly in two decades of following drug 
trafficking, transnational criminal organizations and nonstate armed 
groups is that when they are able to meet in neutral territory they 
often form alliances that would not be possible under other 
circumstances. This is holding true in West Africa.
    Already in Guinea-Bissau, Guinea, Ghana, Sierra Leone, and 
elsewhere we are seeing members of Mexican, Colombian, Venezuelan, 
Surinamese, and European organizations operating in the same territory 
and plugging into the same pipeline. Identified members of the FARC, as 
well as other Colombian organizations are on the ground in West Africa, 
protecting shipments and making deals.
    Not only do these actors bring a huge influx of cash, which can be 
used to buy or corrupt virtually any state institution. The Latin 
American cartel operatives also bring a whole new level of violence and 
sophistication to the illicit pipeline structures. Just as the ``blood 
diamond'' trade and illicit timber deals allowed groups like the RUF to 
purchase advanced weapons on the international market and become a much 
more lethal force, the influx of cocaine cash will allow the criminal 
and militia groups in the region to acquire ever more sophisticated 
armaments, training, and communications. At the same time, the weak 
host states have severely limited police, judicial or military capacity 
to confront these groups in any commensurate manner.
    There is a broader potential danger that must be kept in mind as we 
see assess emerging trends in West Africa. I spoke earlier about the 
``hybrid'' criminal-terrorist organization, of which the FARC is a 
leading example. In West Africa, it is Hezbollah, the Lebanon-based 
Shiite Islamist organization that has long maintained an operational 
presence and has had a significant role in the blood diamond trade and 
many other illicit activities. In addition, many in the Lebanese 
diaspora community in West Africa, numbering several hundred thousand, 
pay a portion of their earnings to support Hezbollah in Lebanon, with 
the knowledge and acquiescence of the host government.\16\ The 
importance of this revenue stream was revealed when a charter flight 
bound for Beirut from Cotonou, Benin, crashed on takeoff on December 
25, 2003. On board was a Hezbollah ``foreign relations'' official 
carrying $2 million in contributions raised in the region. The money 
was said to represent ``the regular contributions the party [Hezbollah] 
receives from wealthy Lebanese nationals in Guinea, Sierra Leone, 
Liberia, Benin, and other African states.'' \17\
---------------------------------------------------------------------------
    \16\ See: Edward Harris, ``Hezbollah Extorting Funds From West 
Africa's Diamond Merchants,'' Associated Press, 29 June 2004.
    \17\ Hamid Ghiryah, ``Hezbollah Officials Carrying Donations 
Reportedly Killed in Lebanese Plane Crash,'' al-Siyasah (Kuwait), 
December 29, 2003. For a broader look at the role of the Lebanese 
diaspora in West African illicit trade activities, see: Lansana Gberie, 
``War and Peace in Sierra Leone: Diamonds, Corruption and the Lebanese 
Connection,'' The Diamond and Human Security Project, Occasional Paper 
6, January 2003.
---------------------------------------------------------------------------
    Given the prominence of the Lebanese diaspora community and its 
members' control of most of the existing pipeline to import and export 
illegal commodities, it is inevitable that those organizations and the 
drug trafficking groups will encounter each other and mutually benefit 
from each other because they each has something the other wants and 
needs. The Lebanese networks control the decades-old contraband 
networks and routes to Europe, while the drug traffickers offer a new 
and lucrative product for the existing pipeline. Violent clashes may 
take place, but the history of both groups indicates they will 
cooperate where useful.
    Given Hezbollah's long-established presence on the ground in the 
region and the closeness of its operatives to that community, it is 
also reasonable to assume that Hezbollah and the drug traffickers, 
operating in the same permissive environment, will cross paths. It is 
precisely this type of environment that allows for the otherwise 
unthinkable alliances to emerge. Most are short-lived, centering on 
specific opportunities and operations that can benefit both groups, but 
others are longer lasting and more dangerous.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Hezbollah Office in Freetown, Sierra Leone.

    There is a long history of outside terrorist actors, particularly 
Hezbollah, being active in Latin America. The most egregious documented 
cases of Hezbollah and Iran's direct involvement in terrorist 
activities are the 1992 bombing of the Israeli Embassy in Buenos Aires 
and the 1994 bombing of the AMIA Jewish center in the same city.
    But there are other instances that merit mentioning. The FARC has a 
long history of reaching out to other terrorist groups, notably the 
Provisional Irish Republican Army (P-IRA) and the ETA Basque 
separatists, for training and exchanges. There are documented visits in 
the late 1990s to the Tri-Border Area by Hezbollah's chief of 
logistics, Immad Mugnyiah (now deceased), and Khalid Sheikh Mohammed, 
the architect of the 9/11 attacks on New York and Washington, currently 
held in Guantanamo.\18\ There is the possible presence of Osama bin 
Laden in the region in 1995, as reported by the Brazilian, French, and 
United States media.\19\ Given the security with which these senior 
operatives would have to move, it is unlikely they would visit the 
region unless there were adequate security arrangements and 
infrastructure to allow them to operate. It is also unlikely they would 
travel there if there were no compelling reason to do so.
---------------------------------------------------------------------------
    \18\ For a comprehensive look at possible radical Islamist 
activities in the region, see: Rex Hudson, ``Terrorist and Organized 
Crime Groups in the Tri-Border (TBA) of South America,'' Federal 
Research Division, Library of Congress, July 2003. For more recent 
Hezbollah ties, as related by Colombia authorities, see: ``Colombia 
Ties Drug Ring to Hezbollah,'' Reuters News Agency, as appeared in the 
New York Times, October 22, 2008.
    \19\ ``El Esteve no Brazil,'' Veja on-line, No. 1,794, March 19, 
2003; ``Bin Laden Reportedly Spent Time in Brazil in '95,'' Washington 
Post, March 18, 2003, p. A24.
---------------------------------------------------------------------------
    More worrisome is the recent evidence of Chavez's direct support 
for Hezbollah, including the June 18, 2008, OFAC designations of two 
Venezuelan citizens, including a senior diplomat, as terrorist 
supporters for working with the armed group. Several businesses also 
were sanctioned. Among the things the two are alleged to have been 
conducting on behalf of Hezbollah were coordinating possible terrorist 
attacks and building Hezbollah-sponsored community centers in 
Venezuela.\20\
---------------------------------------------------------------------------
    \20\ One of those designated, Ghazi Nasr al Din, who served as the 
charge d'affaires of Venezuelan Embassy in Damascus, and then served in 
the Venezuelan Embassy in London. The OFAC statement said that in late 
January 2006, al Din facilitated the travel of two Hezbollah 
representatives of the Lebanese Parliament to solicit donation and 
announce the opening of a Hezbollah-sponsored community center and 
office in Venezuela. The second individual, Fawzi Kan'an is described 
as a Venezuela-based Hezbollah supporter and a ``significant provider 
of financial support to Hezbollah.'' He met with senior Hezbollah 
officials in Lebanon to discuss operational issues, including possible 
kidnapping and terrorist attacks. The OFAC statement can be accessed 
at: http://www.treas.gov/press/releases/hp1036.htm.
---------------------------------------------------------------------------
    Given Iran's ties to Hezbollah and Venezuela, Venezuela's ties to 
Iran and the FARC, the FARC's history of building alliances with other 
armed groups, and the presence of Hezbollah and other armed Islamist 
groups in Latin America and on the ground in West Africa, it would be 
dangerous and imprudent to dismiss the possibility of an alliance of 
these actors. The history of these groups indicates that they will take 
advantage of the ungoverned spaces and corrupt and weak states of West 
Africa to get to know each other, work together, learn from each other 
and exploit areas of mutual interest. Unfortunately, the primary area 
of mutual interest is a hatred of the United States.
    Given that most of the cocaine passing through West Africa is 
destined for Europe, and given the limited resources of the United 
States for protecting its strategic interests around the world, one can 
ask why any of this is of pressing concern for us on a strategic level.
    There are multiple reasons. The first is that the West Africa 
cocaine trail directly strengthens drug cartels that exercise great 
power and pose a direct threat to the United States and its allies in 
the Western Hemisphere. The money generated by the cocaine trade 
largely flows back to the drug trafficking organizations in Mexico, 
Colombia, Bolivia, Brazil and Peru, greatly increasing the power of 
nonstate criminal organizations to challenge the state.
    We see daily the threats posed by the transnational Mexican drug 
organization on and across our borders. We have spent significant 
resources to aid Colombia in its costly wars against the drug cartels 
and the FARC in recognition that these groups posed a direct challenge 
to our national security and the stability of areas of vital strategic 
interest in our hemisphere. The movement of drugs through West Africa 
to Europe produces enormous revenues for these groups, allowing them to 
survive, morph, reconfigure and continue to wreak havoc.
    Just as importantly, the drug trafficking in West Africa also 
directly strengthens those who seek not only to harm the United States 
but also to strangle the struggling liberal democracies in Latin 
America. These include Hugo Chavez in Venezuela, his allies in Iran, 
the FARC and Hezbollah. As noted above, the circumstances in West 
Africa are ideal for allowing many of these nonstate criminal and 
terrorist organizations to greatly expand their cooperation. The money 
raised from the cocaine on the West Africa route brings all these 
threats closer to the United States.
    A second reason to engage in this threat is that the infusion of 
drugs and drug revenue into West Africa--one of the poorest and most 
corrupt regions of the world with a history of violent conflict 
centered on commodities and resources--will inevitably bring a new wave 
of violence and instability to the region. Apart from the very 
legitimate humanitarian concerns, about 18 percent of the oil \21\ and 
14 percent of the natural gas (LNG) imported by the United States each 
year comes from the region,\22\ and these amounts are estimated to rise 
significantly in coming years. By 2015 sub-Saharan Africa is projected 
to supply about 25 percent of United States oil and LNG imports, the 
vast majority of that from West Africa.\23\ Africa remains one of the 
most promising regions of the world for future oil production. Proven 
reserves increased by 56 percent between 1996 and 2006, compared to 12 
percent for the rest of the world.
---------------------------------------------------------------------------
    \21\ Statement of John R. Brodman, Deputy Assistant Secretary for 
International Energy Policy, Office of Policy and International 
Affairs, U.S. Department of Energy, before the Subcommittee on 
International Economic Policy, Export and Trade Promotion, Senate 
Committee on Foreign Relations, July 15, 2004.
    \22\ Statistics from the U.S. Department of Energy: http://
tonto.eia.doe.gov/dnav/pet/pet_move_impcus_a2_nus_ep00_im0_mbbl_a.htm. 
Nigeria is the fifth-largest source of oil for the United States, 
produces some 2.5 million barrels a day, and supplied the United States 
with a total of 413 million barrels of oil in 2007. Angola was next, 
with a total of 185 million barrels of oil sold to the United States, 
followed by Chad (28.4 million barrels), and Cameroon (10.8 million 
barrels).
    \23\ National Intelligence Council, ``Global Trends 2015: A 
Dialogue About the Future with Nongovernment Experts,'' December 2000, 
accessed at: http://www.dni.gov/nic/NIC_globaltrend
2015.html#link13e.
---------------------------------------------------------------------------
    A third reason is that we have already witnessed--and I have spent 
considerable time in the war zones of Sierra Leone, Liberia, and Guinea 
documenting--the horrendous human tragedy of resource wars in West 
Africa. These range from the campaigns of mass amputation and 
systematic rape by the RUF and the brutality of the Taylor regime to 
the millions of displaced refugees and the destruction of civil society 
across the region. The revenue stream derived from cocaine will make 
past wars pale in comparison to what will come. In addition, if history 
is any guide, the traffickers will work to create internal consumption 
markets in the countries where they operate. Having seen first hand the 
damage done by child soldiers in drug-induced hazes already, it is 
clear that easier access to cocaine will give rise to a whole new level 
of violence.
    The United States has already taken important steps to engage in 
this theater. Africom, the DEA and State Department each are devoting 
considerably more resources to drug issues in West Africa than they 
were a year or two ago. But by any measure it is not enough, and 
certainly has not slowed the flow of cocaine through the region. 
Compartmentalization, stove-piping of information, and the continued 
focus on delimited geographic territories continue to hamper the 
effectiveness of counterdrug programs. It is no longer a useful model 
to look at the old, static model of Latin American drug trafficking 
organizations because the new organizations operate on multiple 
continents rather than a single country or region. Hence, information-
sharing across regions and across U.S. Government agencies is vital to 
beginning to significantly improve the situation.
    As the DEA knows well, the key to identifying, mapping and 
dismantling drug trafficking organizations is human intelligence. The 
DEA is working to identify and target ``shadow facilitator,'' or those 
individuals who service a variety of organizations, both criminal and 
terrorist. A prime example of this type of individual was Viktor Bout, 
the Russian weapons merchant who Senator Feingold worked hard to bring 
to justice and who is currently in prison in Thailand, awaiting a 
ruling on whether he can be extradited to the United States to stand 
trial.\24\
---------------------------------------------------------------------------
    \24\ For a more complete look at Bout and his transnational 
operations see: Douglas Farah and Stephen Braun, ``Merchant of Death: 
Money, Guns, Planes and the Man Who Makes War Possible,'' John Wiley 
and Sons, New York, 2007.
---------------------------------------------------------------------------
    However, U.S. agencies cannot work effectively in the region 
without local allies. One of the keys to success in Colombia and 
elsewhere has been the establishment of effective vetted units within a 
local police or military force, where information can be exchanged with 
less fear of leaks or compromise. Given the linguistic and cultural 
complications across West Africa, and the fact that they vary from 
country to country, the ability to work in some fashion with at least a 
segment of the national law enforcement community is vital.
    Finally, our European allies, particularly the French, British, and 
Belgians, must be brought into the process in a much more robust way. 
This is true not only because most of the cocaine ends up in Europe. 
These countries have deep colonial histories in different countries in 
the region, and have a much deeper historic knowledge of the 
traditional criminal and smuggling networks that operate. For example, 
the Belgians have followed the blood diamond trade for decades and 
understand and have mapped the Lebanese family and clan networks 
involved in the trade. This type of information and understanding would 
take years for U.S. agencies to develop, but can be put to good use in 
combating drug trafficking in the region. These nations also have many 
more levers of ``soft power,'' through trade and aid, than the United 
States does, and hence have more tools with which to engage the region 
on this issue.
    I am not optimistic about the possibility of avoiding a wholesale 
disaster in West Africa that will have direct spillover effects in 
Latin America and the United States. The cancer of cocaine trafficking 
is far advanced in a host body that is weak and unable to fight back 
without a great deal of help and significant structural changes. Al-
Qaeda, Hezbollah, Hamas, and other terrorist organizations have an 
operational presence across sub-Saharan Africa. They are increasingly 
using the same pipelines and facilitators as transnational criminal 
groups. These pipelines will grow and spread with the infusion of 
cocaine and drug money, accelerating the corrosion of already weak 
states. But the consequences of allowing the cancer to spread unabated, 
and the direct threat that will pose to the United States, means we 
have no choice but to work to stem the tide.

    Senator Feingold. Thank you, sir.
    Mr. Braun.

  STATEMENT OF MICHAEL BRAUN, MANAGING PARTNER, SPECTRE GROUP 
                 INTERNATIONAL, ALEXANDRIA, VA

    Mr. Braun. Chairman Feingold, thank you very much for the 
opportunity to meet with you today and comment on this very 
important topic.
    If I had one overarching theme that summed up, basically, 
my comments today, it would be ``out of Africa.'' And what do I 
mean by that? It means--by that, I mean we can't modify that 
wildly famous Las Vegas slogan, ``What stays--or, what goes on 
in Vegas, stays in Vegas.'' What happens on the African 
Continent with respect to security threats does not stay on the 
African Continent. I don't care if we're talking about drugs, 
terrorism, other transnational crime; it moves onward to 
distant shores and has a very negative impact.
    One of the things that I would like to stress, probably 
more than any of my other comments or answers to your questions 
that follow, is this. There has been a lot discussed today, a 
lot talk about, now--and this has been a topic of discussion 
around this town for quite some time. Drug trafficking in 
Africa--West Africa--and what's the real strategic threat 
involving all this? And part of that discussion has been this 
coming together of terrorist organizations and global drug 
trafficking organizations. And that is nasty business, but I'm 
going to--let me drill in just a little bit deeper, something 
that folks aren't, I think, thinking about this as much as they 
should be, analyzing it, and determining what the long-term 
impacts are.
    Whether you're the leader of a terrorist organization or 
you are a major South American or Latin American drug 
trafficking kingpin, you do not dispatch to places like West 
Africa your most timid troops; you naturally send your 
toughest, most cunning, most brutal sergeants and lieutenants 
to places like that. Those folks are meeting, as we speak, in 
the same seedy bars, the same seamy brothels, and the same 
dingy hotels almost every evening. What are they doing? They're 
talking business. They're sharing lessons learned. They're 
sharing very important strategic contacts. And what they're 
really doing that scares me, that causes me to lose sleep at 
night, is, they are forming personal relationships today that 
will undoubtedly develop into organizational--strategic 
organizational relationships in the future. Why? Because these 
tough young Turks, these tough young sergeants and lieutenants, 
will naturally claw and fight their way to the tops of their 
respective organizations over the next decade, and assume 
leadership positions.
    And it's one thing today to say that someone from Hezbollah 
can pick up the phone and call someone from Hamas. That's going 
on. That's been going on for quite some time. What's even more 
frightening, though, is when someone from Hezbollah can pick up 
the phone and call someone for the FARC or the Norte Valle 
Cartel or some major Mexican drug trafficking cartel that is 
also beginning to show up on the African Continent. So, again, 
it's just something that I think we need to pay closer 
attention to around this town.
    Some things that I think that we can do that I would simply 
suggest you consider as we talk about building capacity on the 
African Continent. We've made a lot of mistakes over the past 
several years, in Afghanistan and in Iraq, in attempting to 
build law enforcement and judicial capacity. One of the 
problems that I've seen, as the former Chief of Operations for 
4 years, former Chief of Intelligence with DEA for a year, 34 
years in law enforcement in some tough places, what I've seen, 
time and time again, is we become obsessed with building 
corruption-free law enforcement institutions. We can never 
forget that if the cops--no matter how corruption-free they 
are, if they have to deal with corrupt prosecutors and/or 
corrupt judges and/or corrupt border officials and/or corrupt 
prison officials, then the entire judicial process falls apart 
like a house of cards. And I would simply say that, you know, 
we need to maintain a focus on those efforts.
    Quite frankly, I--you know, I've been in this business for 
34 years, and the United States of America has been paying the 
ticket, the vast majority of the world's counternarcotics 
ticket, for quite some time. This is a problem--what's going on 
in Africa is a problem for us, as well. As Doug said, as I'm 
sure Mike will say and others have already testified to, those 
narcodollars that are being generated by the trafficking in 
Europe, Russia, and elsewhere now, eventually make their way 
back into the same organizations that are impacting our 
country. But, I'm telling you what, I'm convinced, too, that 
the Europeans need to step up to the plate and do--I don't want 
to sound too crude here--but, a helluva lot more.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Mr. Braun follows:]

Prepared Statement of Michael A. Braun, Managing Partner, Spectre Group 
                  International, LLC., Alexandria, VA

    Chairman Feingold, Ranking Member Isakson, and distinguished 
members of the subcommittee, I would like to thank you for the 
opportunity to testify today on the threat posed by drug trafficking 
and related security issues in West Africa. The security challenges 
facing West Africa today, above and beyond drug trafficking and abuse 
are enormous. However, I believe it will be abundantly clear by the end 
of this hearing that most of the security threats facing this region 
are in large part driven by, or certainly related to, powerful drug 
trafficking cartels from Latin America and Mexico that have taken root 
on the African Continent. What is even more ominous are the broader 
strategic threats, the by-product if you will, this activity has, and 
will continue to produce.
    Mr. Chairman, let me say up front that each of you on this 
subcommittee, and your colleagues throughout Congress, should be 
praised for all that you have done to support the multifaceted 
counternarcotics efforts of our Nation, and many other countries around 
the globe. I appreciate the fact that it is in that spirit you called 
us here today, to determine what we can do to help Africa with this 
dangerous and highly volatile situation.
    Before entering the private sector on November 1 of last year, I 
served for almost 4 years as the Assistant Administrator and Chief of 
Operations with the U.S. Drug Enforcement Administration, and for 1 
year as the Agency's Acting Chief of Intelligence. I also served in a 
number of DEA offices throughout the United States, including service 
on both our southern and northern borders, on both our east and west 
coasts, in the Midwest, as well as approximately 3 years in various 
countries in Latin America and Iraq. It is through my 34 years in law 
enforcement that I sit before you today, deeply concerned about drug 
trafficking and related security threats playing out in West Africa. 
You will receive a career, Federal narcotics agent's perspective on 
what is happening in West Africa, and how that region has become an 
important link in the global cocaine trade.
   west africa assumes an important role in the global cocaine trade
    The reasons for the increased drug flows into West Africa, 
involving principally cocaine from Latin America and Mexico, are many 
and varied. Demand for cocaine has increased dramatically in many parts 
of Europe, and the best estimates are that approximately 400 to 500 
metric tons of cocaine is destined for Europe this year from Latin 
American and Mexican drug cartels. Consequently, West Africa now plays 
a critical role in connecting cocaine transiting the Atlantic Ocean 
from Latin America and Mexico to destinations throughout Europe and 
elsewhere. Think of it this way: West Africa has become to Europe what 
Central America, the Caribbean and Mexico are to the United States with 
respect to cocaine trafficking. It has always been about the money for 
global drug trafficking cartels; greed being their single most 
important motivator. Colombian and Mexican drug cartels, which operate 
with Fortune 100 corporate efficiencies, also recognize the current 
value of the euro over the dollar, and are successfully capitalizing on 
this lucrative upshot in the present global economic state of affairs.
    I believe there are other important reasons for this shift in 
global cocaine trafficking trends. U.S. law enforcement and our 
military, working shoulder to shoulder with our Mexican, Caribbean, and 
Latin American partners, have hit the Latin American and Mexican drug 
cartels hard over the past few years with recordbreaking seizures of 
drugs, cash, and precursor chemicals. For over 2 years now, we have 
witnessed ever-increasing prices for cocaine throughout the United 
States, and ever-decreasing levels of the drug's purity. This 
phenomenon is unprecedented and I do not believe we have experienced 
anything quite like it for a very long time--if ever.
    The Latin American and Mexican drug cartels are also experiencing 
enormous pressures in their own neck of the woods--in their own 
respective countries, and throughout the Western Hemisphere. 
Consequently, they are looking to develop and expand new markets, and 
Europe has naturally emerged as the perfect, latest playground for 
these ruthless cartels. I have been told many times by my European law 
enforcement colleagues, that they do not possess the tough drug laws 
and sentencing guidelines that you, our Congress, have bestowed upon 
the U.S. Drug Enforcement Administration (DEA) and other Federal law 
enforcement agencies in our country. That, coupled with very liberal 
attitudes toward drug trafficking and consumption found in many 
European countries, is the underpinning for disaster in Europe in the 
years to come.
    I see Europe today teetering on the brink of a drug trafficking and 
abuse catastrophe similar to the one our Nation faced about 30 years 
ago. If you need a visual on what I predict Europe is facing in the 
years to come, just picture Miami, FL, in the late 1970s, followed by 
the ``crack'' cocaine epidemic that exploded all across our Nation in 
the 1980s. The bottom line--Latin American and Mexican drug lords 
currently face far less of a threat distributing their poison in Europe 
then they do in the United States, and there is far more to gain in the 
way of profits.
    Africa is the center of gravity for the drug cartel's movement of 
cocaine out of Latin America and Mexico to European and other markets. 
West Africa's geographical location, positioned between Latin America 
and Europe, and its weak security status, make it the ideal setting for 
exploitation by powerful drug cartels and terrorist organizations. 
These powerful cartels, just like terrorist organizations, thrive in 
``permissive environments''; something our military refers to as 
``ungoverned space.'' In fact, the cartels invest hundreds of millions 
of dollars each year to destabilize regions around the world to advance 
their operational efficiencies. They rely heavily on the hallmarks of 
organized crime--corruption, intimidation, and brutal violence--to 
destabilize governments in places like West Africa. Many countries in 
West Africa qualify as quintessential examples of ungoverned space, and 
allow powerful criminals and terrorists to work unimpeded.
    Most countries in West Africa simply do not possess the judicial, 
border, military and intelligence institutions and infrastructure 
necessary to deal with the threat posed by the Latin American and 
Mexican drug cartels, not to mention terrorist organizations and 
indigenous criminal groups that operate freely throughout this region. 
What is the security situation really like in some West African 
countries? Cops without ink pens and paper, much less radios, 
automobiles, guns and ammunition; border guards without uniforms, not 
to mention basic checkpoint facilities and contraband detection 
equipment; militaries often led by the toughest thugs money can buy; 
and intelligence service operatives who blend seamlessly in with the 
bad guys, because they are working directly for, or in conjunction 
with, the bad guys.
    The security ``fabric'' of most West African countries has the same 
tensile strength as the worn out, filthy and flimsy Western T-shirts 
that cover far too many of their neglected citizens. The retail value 
of a few, multihundred kilogram loads of cocaine passing through many 
of these countries is equal to or exceeds their GNP. The narcodollars 
being spent in support of the cartel's efforts in West Africa threaten 
to destabilize their already anemic economies even more. Porous 
borders, and the significant challenges they present, exacerbate the 
overall security threat even further.
      strategic security threats that may not have been considered
    Many have written about the strategic security threats caused by 
drug trafficking and consumption in Africa, but I would like to address 
some that you most likely have not heard of or considered.
    Local indigenous organized crime groups in Africa are as brutal, if 
not more so, than any in the world, but they have historically lacked 
the sophistication of global drug trafficking cartels and other 
transnational organized crime groups. However, they are now learning 
from the most advanced organized crime organizations in the world--the 
Latin American and Mexican drug trafficking cartels, including the 
Revolutionary Armed Forces of Colombia (FARC), which by the way has 
been designated as a Foreign Terrorist Organization by our country, the 
European Union, and other countries. Why? Because, the cartels rely 
heavily on these indigenous organized crime groups for their smuggling 
and trafficking expertise on the African Continent; just as the 
Colombian cartels did with the Mexican syndicates when we successfully 
closed off the old Caribbean drug transportation corridor, and forced 
the Colombian kingpins to start moving their drug loads across our 
Southwest border.
    Another dimension to this dangerous scenario is that indigenous 
organized crime groups have most likely learned from Mexican 
traffickers to demand payment in ``kind'' (cocaine) for their services, 
rather than in cash. They can make far greater profits with cocaine in 
their hands than they can with currency in their coffers. This type of 
arrangement allows the indigenous organized crime groups to create 
demand--markets--in their own back yard. There is an important lesson 
to be learned here: No ``transit country'' remains purely a transit 
country forever. Just ask our colleagues in Central America, the 
Caribbean, and Mexico. This growing, mutually supporting and beneficial 
relationship is advancing the sophistication and complexity of African 
indigenous organized crime groups at light speed.
    The state of affairs I described in the two previous paragraphs is 
troubling. However, 7 months after I hung up my DEA badge, gun, and 
credentials for the last time, I am still losing sleep over something 
that haunts me like nothing else. Terrorist organizations and global 
drug trafficking organizations naturally migrate to, and ultimately 
comingle in, the same ungoverned space. A recent CNN exclusive reported 
that al-Qaeda was believed to be moving some of its command and control 
network back to Somalia where they had a significant presence through 
the mid-1990s. The fact of the matter is, al-Qaeda never left the 
African Continent and they have routinely had their operatives working 
throughout North, East and West Africa. Hezbollah and Hamas are even 
more active in West Africa and other places on the continent.
    Mark my word, as we speak here today, operatives from al-Qaeda, 
Hezbollah, and Hamas--perhaps others--are rubbing shoulders with the 
Latin American and Mexican drug cartels, including the FARC, in West 
African countries and other places on the continent. They are 
frequenting the same seedy bars and sleazy brothels, and they are 
lodging in the same seamy hotels. And they are ``talking business.'' 
They are sharing lessons learned, sharing critically important contacts 
and operational means and methods.
    What is most troubling about this situation is that terrorist and 
cartel leaders send their toughest, most cunning young sergeants and 
lieutenants to places like West Africa; the kind of guys who they can 
count on to advance their (the leader's) agendas no matter what it 
takes. These are the guys who will fight and claw their way into 
executive leadership positions within their respective organizations 
within the next decade--in both terrorist groups and global drug 
cartels. And these are the guys who are forming personal relationships 
today that will most assuredly evolve into strategic, organizational 
relationships tomorrow, as they work their way up the ladder within 
their respective organizations. This scenario is the witches brew. We 
as a nation should be doing everything in our power to drive a wedge 
between these powerful threats, but I fear that we are not. And I am 
afraid we could pay dearly for our mistake in the years to come.
    Finally, permissive environments like those found in some countries 
of West Africa are unintentionally promoting the continued evolution of 
what I call the ``hybrid terrorist organization,'' which is a 
designated foreign terrorist organization that has involved itself in 
one or more aspects of the global drug trade to help fund operations 
and keep their respective movements alive. The Hezbollah, FARC, Hamas, 
Sendero Luminoso, Abu Sayef, and at least 15 others of the 45 current 
designated foreign terrorist organizations have made this transition. 
It is the face of 21st century organized crime, and places like West 
Africa are its preferred breeding ground and base for operations.
               a few suggestions to help turn this around
    It is difficult for global drug trafficking cartels to establish 
wholesale bases of operations in areas of the world where the rule of 
law is strong and security institutions are respected. In many West 
African countries, as well as other challenged environments around the 
globe, it is important that we work closely with host-nation officials 
to develop and implement fully vetted judicial paradigms. Our 
government has been obsessed with building corruption-free police 
institutions in some extremely challenged environments over the past 
few years, yet we continue to miss a critical link that is essential to 
the success of these projects. If trusting police officers have to deal 
with corrupt prosecutors, and/or corrupt judges, and/or corrupt prison 
officials, then the entire judicial process falls apart like a house of 
cards. Focus on creating a corruption free judicial process--and not 
just corruption-free cops. Anything short of that is doomed to failure.
    Equipping militaries, law enforcement and intelligence services 
with aircraft, swift-boats, and other costly interdiction and 
enforcement hardware is important, but we had better have a long-term 
training and mentoring piece attached to these projects. If not, we 
could find our counterparts in West Africa using those assets against 
us in support of the cartels--or terrorist organizations. I no longer 
speak for the DEA, but I believe the Agency would be willing to assume 
greater responsibility for enhancing our Nation's counternarcotics 
strategy in Africa if it received the additional personnel and 
resources that it desperately needs to address the threats I have 
discussed today. Included should be funding for the DEA to standup 
additional offices in Africa, as well as fully vetted host-nation 
Sensitive Investigative Units in several African countries, much like 
the Agency has in Colombia, Mexico, Afghanistan, and elsewhere. The DEA 
could then share the most sensitive intelligence with their African 
counterparts for effective action.
    Many Department of Defense detection and monitoring (D&M) 
resources, as well as maritime interdiction resources, were moved out 
of Southern Command's area of responsibility after the 9/11 attacks on 
our Nation, and these resources have never been fully recouped. These 
assets are responsible for identifying and interdicting drug loads 
moving by sea and air. Although Joint Interagency Task Force South 
(JIATF-S) interdiction seizures have been nothing short of spectacular 
over the past few years, it is in large part due to our military 
working closer with Federal law enforcement in the post 9/11 era. 
Needless to say, if Southern Command recovered those missing D&M and 
interdiction resources, the seizure numbers would be even greater, 
including the interdiction of drug loads destined for Europe via 
Africa.
    Finally, it would be easy to say that Africa is Europe's problem, 
but the truth of the matter is that the money which flows back into the 
coffers of the Latin American and Mexican drug cartels, the same ones 
that are directly impacting our country, makes the cartels even 
stronger. We, as a nation, should be doing a great deal more to support 
Africa, but I also strongly believe we should press many European 
countries to do more in support of counternarcotics efforts designed to 
dismantle or significantly disrupt the Latin American and Mexican drug 
cartels. The United States has funded the global, counternarcotics 
ticket for far too long, and it is time other responsible nations 
assumed more responsibility of this burden.
                           ``out of africa''
    If I had one overarching theme to sum up my comments today it would 
be, ``Out of Africa.'' We cannot modify that wildly famous Las Vegas 
slogan, ``What goes on in Vegas stays in Vegas'' and apply it to 
Africa. Because what goes on in Africa does not stay in Africa; whether 
it is drugs, terrorism, the black diamond trade, human trafficking, or 
some other transnational organized criminal activity, the end result 
impacts distant shores.
    I mentioned that I lose sleep at night thinking about the 
escalating involvement of Hezbollah, Hamas, and other terrorist groups 
in the global drug trade. They are operating freely in many parts of 
Latin America and that is troubling indeed. However, in my mind the 
threat is far more dangerous than most choose to admit, because these 
same terrorist groups and others are now clearly positioned on our 
Eastern ``flank''--West Africa--and the drug trade emanating in Latin 
America is clearly funding, and now facilitating much of their 
operational capacity.
    What goes on in Africa does not stay in Africa.

    Senator Feingold. Thank you very much, Mr. Braun, for your 
testimony.
    Professor McGovern.

   STATEMENT OF DR. MICHAEL McGOVERN, ASSISTANT PROFESSOR OF 
          ANTHROPOLOGY, YALE UNIVERSITY, NEW HAVEN, CT

    Dr. McGovern. Mr. Chairman, I want to thank you and your 
colleagues for the invitation to join you in today's hearing.
    I'll limit my remarks to two brief points and one 
suggestion for a partial solution, and I'm happy to enlarge on 
any of these during the questions period.
    I want to begin with a tale of two countries, Guinea-Bissau 
and Guinea-Conakry. Both countries, as we've heard, have 
recently seen a radical upsurge in the presence of transshipped 
drugs, and the money and violence that come with them. Both are 
experiencing considerable political instability, falling 
standards of living, and recently saw their Presidents die; in 
Guinea-Bissau, probably as a result of narcotraffickers' doing.
    However, the reactions to the presence of traffickers in 
the two countries is quite different. In Guinea-Bissau, the 
attitude toward the fact that drug transshipment has come to 
dominate the national economy has been largely agnostic. By 
contrast, the reaction in Guinea has been, frankly, moralistic 
and utterly negative. Ill-gotten drug wealth is seen as 
corrupted, as are any persons involved in the drug trade. Most 
Guineans that I know have a sophisticated understanding of the 
gangrenous potential of such criminal economic networks to 
insulate the powerful against any claims made by ordinary 
citizens, to cultivate secrecy and other kinds of abuse, and to 
destabilize countries by creating competing factions amongst 
the powerful.
    The military junta that took power immediately after 
President Conte's death last December in Conakry made 
prosecuting drug traffickers one of its No. 1 priorities, and 
the deceased President's brother-in-law and son are presently 
in prison for drugs trafficking, along with the former army 
chief of staff, navy chief of staff, and the head of the 
gendarmerie.
    And I'll just say parenthetically, I think it's important--
we've been hearing about weak states and porous borders--there 
are states that might have the political will to fight drugs 
trafficking, and not all the capacity they'd like to have. But, 
where this has really taken off, it has been with, not just the 
complicity, but the very close cooperation of the highest level 
of state who can provide the military, the logistical, and all 
of the other sorts of support that the cartels need to operate 
in their countries.
    These differences between Guinea and Guinea-Bissau point to 
at least two important findings for policymakers. First, there 
are significant differences in national culture and attitudes. 
And this suggests that a one-size-fits-all approach is not 
going to be one that yields good results. Second, even where 
there are significant differences in national attitudes, we may 
still find elites acting in similar ways. As we've heard 
already, the amounts of money at stake are enormous, and the 
cartels are not stupid. They choose those countries where the 
political elite has already shown itself more or less 
indifferent to the welfare of its population.
    The second point, I'll make briefly, because it's been made 
by others, but, in West Africa, as elsewhere, criminal networks 
centered on drugs often cooperate with and cross-fertilize 
other extralegal networks. In West Africa, these may include 
human trafficking, arms trading, and insurgent networks. And, 
as Michael Braun already said, groups are increasingly 
diversifying their tactics and mixing and matching the 
activities of organized crime syndicates, insurgent groups, and 
quasi-state actors.
    I'd like to finish with a suggestion regarding one 
productive approach to this problem, which echos both Michael 
Braun's and Ambassador Carson's remarks. I believe that much 
more attention has to be given to the support of the justice 
sector in many West African countries. We've heard about the 
importance of interdiction, but I'd like to suggest that a 
narrow approach may not yield the desired outcomes, even if it 
appears, initially, to be admirably focused and, consequently, 
less expensive. What's necessary is a thorough-going reform of 
all the institutions implicated in the justice sector, from the 
police to low-level magistrates, from systems of case 
management to civic education regarding the role and the 
prerogatives of the supreme court.
    I won't have to convince you of the importance of a strong 
and independent legislature for any healthy democracy, 
something that's sorely lacking in many West African countries; 
however, in the case of drug trafficking, it's an independent 
and neutral judiciary that will make the greatest difference.
    I urge the subcommittee to consider the present problem 
within the larger framework of the need for holistic and long-
term support for the justice sectors of West African countries. 
The fact that the last place many West African peasants go when 
faced with a case of rape or a land dispute is the courts, the 
fact that a chief justice of a supreme court does not have the 
courage to declare a President in a coma incompetent to fill 
his functions, which was the case in Guinea, and the fact that 
international drug syndicates can operate in these same 
countries in total impunity may not, at first glance, seem to 
be interrelated facts; but, indeed, they are.
    Thanks.
    [The prepared statement of Dr. McGovern follows:]

 Prepared Statement of Michael McGovern, Ph.D., Assistant Professor of 
              Anthropology, Yale University, New Haven, CT

    Mr. Chairman, I want to thank you and your colleagues for the 
invitation to join you in today's hearing on ``Confronting Drug 
Trafficking in West Africa.'' My name is Mike McGovern, and I am a 
professor of anthropology at Yale University. I was previously the West 
Africa Director of the International Crisis Group, where I conducted 
research on the region from the Sahara-Sahel region down to the Niger 
Delta.
    I would like to limit my remarks to two brief points and one 
suggestion for a partial solution. I am happy to enlarge on any of 
these during the questions period.
    1. I begin with a ``Tale of Two Countries.'' We know that 
international drugs traffickers have chosen to use West Africa as a 
preferred transshipment point for Latin American cocaine headed to 
Europe. Where these relationships have flourished, it has typically 
been in contexts where the traffickers have worked in complicity with 
high-level political military officials.\1\ This has been the case 
notably in both Guinea-Bissau and Guinea-Conakry. Yet what do we know 
about local reactions to this state of affairs? Quite a lot, actually, 
if we talk with people, read the local newspapers, and listen to call-
in radio shows like those in Conakry where these are topics of burning 
interest.
---------------------------------------------------------------------------
    \1\ I recommend Stephen Ellis's 2009 article, ``West Africa's 
International Drug Trade,'' In African Affairs 108/431:171-196 to 
anyone interested in this subject.
---------------------------------------------------------------------------
    Both countries have recently seen a radical upsurge in the presence 
of transshipped drugs and the money and violence that come with them. 
Both are experiencing considerable political instability, falling 
standards of living, and recently saw their Presidents die. In Guinea-
Bissau it appears that the President's death may well have been 
orchestrated by the traffickers. However, the reactions to the presence 
of traffickers is quite different in the two countries. In Guinea-
Bissau,\2\ the attitude toward the fact that drugs transshipment have 
come to dominate the national economy seems to be agnostic. Cocaine is 
one good amongst many,\3\ and to the extent that cocaine represents a 
scourge for those who use it, many Bissau Guineans seem to consider 
this the concern of those European countries where the drug is 
consumed, and perhaps of those Latin American countries where it is 
produced. The biggest concern of many Bissau Guineans has been over the 
perceived fairness or not of the redistribution of wealth gained by 
such means. In other words, it is alright to enrich oneself by 
participating in the drugs trade, so long as one shares the wealth with 
kin, with allies, and with political clients.
---------------------------------------------------------------------------
    \2\ I base my Guinea-Bissau comments on conversations with Guinea-
Bissau specialists, including one colleague who has worked there for 
some 20 years and was in the country in March when the Army chief of 
staff and the President were assassinated.
    \3\ In this way drugs are like cashews, which have lured many 
Bissau Guineans away from the backbreaking work of subsistence rice 
cultivation but exposed them to the whims of the international cashew 
market.
---------------------------------------------------------------------------
    By contrast, the reaction in Guinea has been frankly moralistic and 
utterly negative. The ill-gotten wealth is seen as corrupted, as are 
any persons involved in it. Most Guineans I know have a sophisticated 
understanding of the gangrenous potential of such criminal economic 
networks to insulate the powerful against any claims made by ordinary 
citizens, to cultivate secrecy and other kinds of abuse, and to 
destabilize countries by creating competing factions amongst the 
powerful. The widespread rumor that members of former President Lansana 
Conte's family were key actors in the drugs trade was seen by most 
Guineans as proof of the moral degradation of the regime, and robbed it 
of whatever remaining legitimacy it might have had. The military junta 
that took power immediately after Conte's death last December made 
prosecuting drug traffickers one of its No. 1 priorities, and the 
deceased President's brother-in-law and son are presently in prison, 
along with the former Army chief of staff, Navy chief of staff, and 
head of the Gendarmerie. There are also a number of Nigerians and an 
Israeli awaiting trial on drugs charges. Although the junta has 
gradually lost much of its legitimacy by signaling the possibility that 
the head of the junta might break his promise to return power to 
civilians, the drugs trials have been a continuing source of popularity 
and legitimacy for them, and there is considerable public pressure for 
the trials to move forward.
    The distinction I have suggested between Guinea and Guinea-Bissau 
is to some extent exaggerated. There are certainly some Bissau Guineans 
who are morally outraged by the presence of drugs traffickers in their 
country just as there are some apathetic Guineans in Conakry.\4\ Yet I 
think the differences are real, and they point to at least two 
important findings for policymakers. First, there are significant 
differences in national culture and this suggests that a one-size-fits-
all approach to this problem is likely to yield poor results. In 
Guinea-Bissau, there may be a lot of work to be done simply in 
convincing ordinary Bissau Guineans that the drugs trade is, on 
balance, against their own self-interest. In Guinea, where people are 
already convinced of this, the problems have more to do with the 
strategies, institutions and processes used to act on an existing 
social consensus. The other ``take-away'' point I would underline is 
that even where there are significant differences in national 
attitudes, we may find elites acting in similar ways. The amount of 
money at stake is enormous, often outstripping small nations' GDPs, and 
international traffickers are not stupid: They choose those countries 
where the political elite has already show itself more or less 
indifferent to the welfare of the population, treating the national 
patrimony as their personal property and capable of coordinating 
activities within the military and civilian channels necessary to 
provide cover to such major international networks.
---------------------------------------------------------------------------
    \4\ Anthropologist Daniel Smith has nicely captured the ways that 
disapprobation and acceptance of criminal behavior can coexist in the 
same society or even the same person. See ``A Culture of Corruption: 
Everyday Deception and Popular Discontent in Nigeria.'' Princeton: 
Princeton University Press 2006.
---------------------------------------------------------------------------
    2. The second point is that in West Africa as elsewhere, criminal 
networks centered on drugs often cooperate with and cross-fertilize 
other extra-legal networks. In West Africa, these may include human 
trafficking, arms trading, and insurgent networks. A few quick examples 
will help me make this point:

--As Algeria and Libya have clamped down on the formerly robust stream 
    of African migrants crossing the Sahara desert in order to reach 
    North Africa and ultimately Europe, those same migrants have moved 
    toward the West African coast, taking fishing pirogues \5\ in order 
    to reach the Canary Islands. Meanwhile, drugs shipments that had 
    previously headed by boat or air from the West African coast 
    northward to Europe have increasingly traded places with the former 
    human trafficking routes, now crossing the desert. A 2008 seizure 
    of 750 kilograms of cocaine along the Mali-Algeria border is one 
    example of the growth of the drug trade along this route.\6\
---------------------------------------------------------------------------
    \5\ A kind of long canoe.
    \6\ For more on the complex interlinkages amongst Islamist 
insurgency, Tuareg rebellions against the Malian and Nigerien states, 
cigarette smuggling, and human trafficking, see ``Islamist Terrorism in 
the Sahel: Fact or Fiction?'' Africa Report No. 92. Brussels: 
International Crisis Group 2005.
---------------------------------------------------------------------------
--In the Niger Delta drugs are one of multiple interchangeable 
    currencies along with stolen oil, weapons, and cash. This links a 
    variety of criminal activities to the drugs trade, ranging from 
    kidnapping expatriate oil company employees for ransom, to oil 
    bunkering,\7\ to the arming and use of young men as political 
    muscle to determine the outcome of elections in the region. It also 
    helps to interlink disparate criminalized networks, ranging from 
    the militants fighting in the creeks of the Delta to the political 
    ``godfathers'' controlling politics at the local level, to the oil 
    companies themselves, who often pay, and allegedly even arm, some 
    actors in order to act outside the law against others.\8\
---------------------------------------------------------------------------
    \7\ Bunkering is theft of oil by filling tankers illegally and 
selling it for personal gain, estimated to account for some 30 percent 
of overall Nigerian oil production. It exists alongside smaller scale 
theft of oil by illegally tapping into pipelines.
    \8\ This is the case with ``surveillance'' contracts, in which 
militants who make a credible enough threat to the security of oil 
installations are often paid off under the guise of a kind of private 
security contract. More serious accusations, for instance that Royal 
Dutch Shell armed Nigerian military and hired government troops who 
shot at protestors in the 1990s were recently settled with an out-of-
court payment to the families of nine activists (including Ken Saro-
Wiwa) hanged by the Nigerian Abacha government. Shell still denies any 
wrongdoing, and described the payments as a ``humanitarian gesture.'' 
See 9 June 2009 ``Joy at Nigeria Oil Deaths Pay-Out.'' BBC News http://
news.bbc.co.uk/2/hi/africa/8091104.stm.

    Increasingly groups are diversifying their tactics and mixing and 
matching the activities of organized crime syndicates, insurgent 
groups, and quasi-state actors. Different groups share expertise and 
contacts. The relations between state and nonstate actors are often 
ambiguous, sometimes fluctuating between complicity and enmity, or at 
other times varying between different groups within government that are 
competing for preeminence.
    Finally, I would like to close with a suggestion regarding one 
productive approach to this problem. I believe that much more attention 
needs to be paid to support of the justice sector in many West African 
countries. Certainly the officials from the Drug Enforcement Agency and 
other arms of the government who testify today will have already 
requested that the subcommittee grant more money for the kinds of 
training and cooperation that will assist in interdiction and 
investigation activities in countries like Guinea-Bissau and Guinea. I 
would like to suggest that a narrow approach may not yield the desired 
outcomes, even if it appears initially to be admirably focused and 
consequently less expensive.
    It is not by coincidence that in going after the traffickers in 
Guinea, the junta bypassed the judicial system and conducted a kind of 
popular ``kangaroo court'' televised live to the entire country, in 
which the head of the junta personally interrogated those accused 
(including the son of the recently deceased President) and extracted 
confessions from them. The lower ranking officers who took power in 
Guinea felt, like most Guinean civilians, that the judicial branch of 
government was not a branch at all, but merely an appendage of the 
executive. In light of this, the soldiers have set up a parallel 
justice system to deal not only with drugs cases but also with land 
disputes and all manner of other complaints. I believe they are acting 
in good faith in doing this, but the approach is clearly not 
sustainable in the long term. What is necessary is a thoroughgoing 
reform of all the institutions implicated in the justice sector, from 
the police to low-level magistrates, from systems of case management to 
civic education regarding the role and the prerogatives of the Supreme 
Court. Guinea is not alone in needing this kind of support. Liberia 
also has been in desperate need of justice sector reform, and efforts 
over the last 3 years are just beginning to show results. But systemic 
change will require concerted long-term support organized by a holistic 
view of the changes sought.
    Many West African intellectuals have grown weary and even skeptical 
of foreign lectures about the virtues of democracy. Many decry the 
focus on elections to the exclusion of all else. I would agree, but 
would add this: The focus is not just too much on elections; it is also 
too focused on the executive branch of government. Granted, in Guinea, 
Guinea-Bissau and a number of other countries, the executive has all 
but swallowed up the legislative and judicial branches, even if they 
have constitutional prerogatives of their own. It can be hard to see 
how one might gain any access to the legislative or the judicial 
without passing by the executive first. Yet why would we expect the 
executive to willingly cede the power it has worked long and hard to 
monopolize, especially when what is at stake may be investigation of 
its own illegal activities?
    I will not have to convince this audience of the importance of a 
strong and independent legislature for any healthy democracy. However, 
in the case of drug trafficking, it is an independent and neutral 
judiciary that will make the greatest difference. I urge the 
subcommittee to consider the present problem within the larger 
framework of the need for holistic long-term support for the justice 
sectors of West African countries. The fact that the last place many 
West African peasants go when faced with a case of rape or a land 
dispute is the courts; the fact that the chief justice of a supreme 
court does not have the courage to declare a President in a coma 
incompetent to fulfill his functions; and the fact that international 
drug syndicates can operate in these same countries in total impunity 
may not at first glance seem to be interrelated facts, but indeed they 
are.

    Senator Feingold. Thank you all for your interesting 
testimony and useful suggestions.
    I will start off a round with Mr. Farah. As a reporter and 
researcher you've covered drug trafficking in Latin America for 
decades. And obviously it's not easy to draw parallels between 
Latin America and West Africa, because the latter is not a 
major producing region. Nonetheless, from your observations of 
counternarcotics efforts in Latin America, what lessons do you 
believe can be learned for West Africa, and what has been most 
effective at stopping drug flows?
    Mr. Farah. Well, I'd say, as I said in my prepared full 
remarks, I think one of the key issues is vetted units, which 
was talked about to some extent here. I think one of the huge 
successes in Colombia was the creation of reliable, vetted 
units that you could rely on to both--to prosecute and chase 
the drug traffickers and bring down their organizations.
    The second--and this is something that the DEA has done 
well over time--is the creation of human intelligence. As 
you're well aware of, Senator, we lost a lot of our human 
intelligence capacity and a lot of the intelligence community 
in the 1990s, and, prior to 9/11, were scrambling to build that 
up. I think that that is crucial to understanding how these 
operations work, because a lot of it is not going to be--some 
of it's very high-tech, and some of it's incredibly low-tech. 
You--they do use sat phones and things, but they also, as Mike 
Braun was saying, hang around together and--if you look at the 
diamond smuggling and how other stuff operates, it was very 
low-tech. You can move stuff across deserts in small packages.
    So, I think human intelligence is much more crucial than 
having high-tech, very expensive toys out there. People on the 
ground are much more important.
    The other thing I've learned in my years of dealing with 
drug trafficking is that, especially in the smaller countries, 
everyone knows who they are. It's not that--that's--goes back 
to the human intelligence side. I mean, I--as a reporter, I 
could wander around Cali, and you could--they would say, ``OK, 
well, so-and-so lives here, and this is so-and-so's house, and 
this--he's married to
so-and-so, they own this''--you know, nothing necessarily would 
initially stand up in court, but they are known quantities. 
Very quickly. At Guinea-Bissau, I guarantee you everybody knows 
who the major traffickers are, because it's not a very big 
place. Sierra Leone is the same way. Liberia is the same way. 
Just as I could figure out who the al-Qaeda diamond dealers 
were in those countries because people would talk to me, you 
can bet you'll find out who the drug traffickers are.
    So, I think you have to--as we were asking the earlier 
panel about funding, you have to have people on the ground 
there who can actually listen to what's going on and help, 
then, the law enforcement agencies, intelligence community, and 
develop that into something much more actionable.
    And the third thing I think that you really have to focus 
on is the money trail. Mike McGovern has talked about the civil 
society side, which I think is also incredibly important. But, 
if you find--if you can--you know what the narcos want, you 
know what they'll buy, and you can bet that they're doing it 
there. You know, there are certain things that they always buy 
across Latin America, and they'll be buying in Africa. You can 
track their money much more efficiently doing that than setting 
up these wide regulatory networks that no one can enforce.
    And so, I would say that that's another key point.
    Senator Feingold. Well, in this regard, you said that 
identified members of the FARC and other Colombian 
organizations are on the ground in West Africa and protecting 
shipments and making deals. And from your sources, is there 
credible evidence that these groups are trying to establish 
footholds and expand their presence in West Africa? And I think 
you've already alluded to this can these people really blend 
in? You seem to be suggesting they can't.
    Mr. Farah. I think what you'll see in that situation, 
Senator, is that you'll have the FARC keeping their enforcers 
on the ground there and making sure that their products are--or 
the other Colombian or Mexican or Surinamese groups, making 
sure their product is delivered, but they need--and this is 
what I think is so dangerous--they need the Lebanese diaspora, 
which ties very closely to Hezbollah, networks to move their 
product if they're going to do that over time. From Guinea-
Bissau, if you're going to fly an aircraft, you don't need 
that. If you're going to begin using overland lines and folks--
and routes that these groups have hugged into and run for the 
last 60 years, then you're going to need to hook up with those 
organizations to move your product. That's why I think you're 
not going to see a bloodbath of organized criminal groups going 
after each other, because the narcos bring something very 
valuable to the pipeline that the other groups already control, 
and the cocaine people need the pipeline, the pipeline will 
benefit from the cocaine, and you'll see, I believe, very 
quickly, a cooperative effort there, using traditionally 
established--the same way they did--as you're familiar with it, 
with the diamonds--the same groups that bring the expired 
chicken and dump it in West Africa, the expired medicines and 
dump it in West Africa, take the timber and gold out of West 
Africa--they'll plug cocaine into that pipeline without 
thinking twice about it. And that's why they don't need to 
blend in. They need enough presence on the ground to be able to 
say, ``We can blow your brains out if you don't do what we 
like,'' but they don't need to take over the country; they need 
to have people who cooperate with them.
    Senator Feingold. Thank you. Thank you, sir.
    Mr. Braun, clearly one of the major challenges we face is 
identifying, tracking, investigating, and, of course, 
ultimately, disrupting these drug trafficking organizations, 
rather than just picking off individuals. From your long 
experience at DEA, what do you see as the key to going after 
organizations? And are there best practices that should be 
considered as the United States and our partners scale up 
counternarcotics efforts in West Africa?
    Mr. Braun. Thank you for the question.
    Mr. Chairman, listen, I've given a lot of thought to what's 
going on in Africa. I've--you know, one of my last foreign 
trips, you know, abroad, as the Chief of Operations with DEA, 
was in Africa. I can tell you what we need to do in Africa. And 
Doug has alluded to this, and others have alluded to it and 
said it directly. DEA needs a much larger presence on the 
African Continent. Right now, they've got four offices, soon to 
open a fifth in Kenya, but there are some major gaps. And when 
you actually tally up the numbers of personnel that are 
assigned to those soon-to-be five offices, you're probably 
talking about less--somewhere between 15 and 20 criminal 
investigators or special agents. So, you need--we need a much 
larger DEA presence on the ground, and I believe--and I'm not 
speaking for the agency any longer, Senator; I've been gone for 
7 months--but, we also need--or, the DEA needs the resources, 
including the funding, to stand up a number of vetted teams, as 
many have talked about, in that country. They are the DEA's 
force multiplier abroad. You know, when you've got vetted teams 
of seasoned host-nation counterparts that are well trained, 
fully vetted, working shoulder to shoulder with DEA personnel, 
you can take that one DEA agent and quickly multiply him or her 
by tenfold, if not more. And they bring--that program brings a 
very powerful punch to the fight very quickly.
    So, if you're--there are no quick fixes, no easy solutions, 
but that is one way that we can very quickly get a much better 
handle on what to do. And with that increased capacity, the DEA 
can focus on their organizational attack that is working 
extremely well in places like Afghanistan now, that has worked 
very well in places like Thailand, Colombia, Peru, Bolivia, 
Mexico, and elsewhere over many years.
    Thank you.
    Senator Feingold. Thank you, Mr. Braun
    Dr. McGovern, you've studied this region closely for some 
time. In your view, how can we ensure that increased 
counternarcotics assistance and activities contribute to larger 
efforts to promote regional stability and the rule of law? And 
what are the risks if we focus too narrowly on interdictions 
and investigations without building sufficient institutional 
capacity?
    Dr. McGovern. Yes. Thanks for the question.
    This goes back to my final comments about a holistic 
approach to the justice sector and the need for people to see 
the justice sector as something that operates independently of 
the executive, and where they might have recourse for any of 
their needs that we take for granted in a country like this 
one. And I think, in that context, it's important to keep in 
mind that, in a country like Guinea, where, right now, there's 
a kind of a ferocious battle being waged by the military junta 
against the drug traffickers, it's being waged in ways that are 
likely to end up undercutting the broader aim of strengthening 
the institutions that we need to see strengthened. The actual 
process, so far, has been a kind of a kangaroo court, where the 
head of the junta has personally interrogated people like the 
former President's son on live television, extracted a 
confession from him, and then, you know, it looked, for a 
while, as if they would be released, because, for many 
Guineans, justice had been done. There isn't even a conception 
of what the legal process ought to be and who are the competent 
people within the justice institutions who ought to follow it 
through.
    And I would just say as a footnote to that, it's the one 
area where this junta, in Guinea-Conakry, has some legitimacy 
both with the people--it looks as if they're increasingly 
looking to hold on to power and not hold elections--and it's 
one of the areas that they're throwing a kind of--a few crumbs 
to the U.S. Embassy in Conakry in order to try to maintain a 
bit of support while really abandoning everything else, in 
terms of human rights, due process, and turning power back over 
to civilians.
    Senator Feingold. Well, I have found this panel to be very 
interesting, and this hearing, I think, is an important way, as 
Senator Kaufman said and as we've tried to illustrate, to make 
this something that people are aware of, not only with regard 
to the African countries and people that are involved, but with 
regard to our own national security, as well. So, I look 
forward to following up with all of you.
    And that concludes the hearing.
    [Whereupon, at 11:52 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
